<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2011 

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                   JOSE E. SERRANO, New York, Chairman
 DEBBIE WASSERMAN SCHULTZ, Florida          JO ANN EMERSON, Missouri
 ROSA L. DeLAURO, Connecticut               JOHN ABNEY CULBERSON, Texas
 CHAKA FATTAH, Pennsylvania                 MARK STEVEN KIRK, Illinois
 BARBARA LEE, California                    ANDER CRENSHAW, Florida
 ADAM SCHIFF, California
 STEVE ISRAEL, New York
 TIM RYAN, Ohio        


 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
           Lee Price, Bob Bonner, Angela Ohm, and Ariana Sarar
                           Subcommittee Staff

                                ________

                                 PART 6
                                                                   Page
 Judiciary........................................................    1
 U.S. Supreme Court...............................................   83
 General Services Administration..................................  123

                                   S

                                ________

         Printed for the use of the Committee on Appropriations






















 PART 6--FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 
                                  2011























   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                   JOSE E. SERRANO, New York, Chairman
 DEBBIE WASSERMAN SCHULTZ, Florida          JO ANN EMERSON, Missouri
 ROSA L. DeLAURO, Connecticut               JOHN ABNEY CULBERSON, Texas
 CHAKA FATTAH, Pennsylvania                 MARK STEVEN KIRK, Illinois
 BARBARA LEE, California                    ANDER CRENSHAW, Florida
 ADAM SCHIFF, California
 STEVE ISRAEL, New York
 TIM RYAN, Ohio      

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
           Lee Price, Bob Bonner, Angela Ohm, and Ariana Sarar
                           Subcommittee Staff

                                ________

                                 PART 6
                                                                   Page
 Judiciary........................................................    1
 U.S. Supreme Court...............................................   83
 General Services Administration..................................  123

                                   S

                                ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-204 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                         COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington               JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia           C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York                 RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut                Jersey
 JAMES P. MORAN, Virginia                  TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts              ZACH WAMP, Tennessee
 ED PASTOR, Arizona                        TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina            ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                       JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island          KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York              MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California         JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                      MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois           ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan           DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                       JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania                RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey             KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia           JO BONNER, Alabama
 MARION BERRY, Arkansas                    STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California                   TOM COLE, Oklahoma
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)
   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2011

                              ----------                              

                                          Thursday, March 18, 2010.

                FY 2011 BUDGET HEARING FOR THE JUDICIARY

                               WITNESSES

HON. JULIA S. GIBBONS, CHAIR, COMMITTEE ON THE BUDGET OF THE JUDICIAL 
    CONFERENCE OF THE UNITED STATES
JAMES C. DUFF, DIRECTOR, ADMINISTRATIVE OFFICE OF THE U.S. COURTS

                   Chairman Serrano's Opening Remarks

    Mr. Serrano. Subcommittee will come to order. Before we 
start I would like to take a moment to remember the attack that 
occurred outside the Lloyd D. George U.S. Courthouse and 
Federal Building in Las Vegas this past January, which took the 
life of one court security officer and wounded a deputy U.S. 
Marshal. I know that I speak on behalf of this whole Congress, 
and Mrs. Emerson will have her own comments. Our hearts go out 
to the deputy, the court security officer, and their families.
    Court security is addressed in your budget's submission, 
and this subcommittee will work closely with you to do all that 
we can to protect employees and members of the public in and 
around Federal facilities. And as we said to the IRS 
Commissioner and to Secretary Geithner, there is no difference 
of any kind, no difference of opinion of any kind by any member 
of our society that justifies any action against any Federal 
employee or any other human being for that matter. So please 
rest assured that we will do what we have to do to be 
protective, and at the same time we offer to you our 
condolences to the families and coworkers.
    Today we will hear testimony on the fiscal year 2011 budget 
request of the Federal judiciary. The judiciary as an 
independent branch of government submits its funding request to 
Congress rather than having the Office of Management and Budget 
vet it first. An independent Federal judiciary plays an 
important role in our constitutional system. Like other 
government institutions, the judiciary needs sufficient 
resources to properly function and perform its constitutional 
duties. Unlike other institutions, the workload of the 
judiciary is to some extent determined by the direct actions of 
certain parts of the executive branch, such as the Departments 
of Justice and Homeland Security, by the numbers and types of 
cases they prosecute.
    Also, as I am sure will be addressed in this hearing at 
some point, the judiciary's caseload has also been affected by 
the downturn in the economy, which is reflected in the increase 
of bankruptcy filings. This subcommittee has made it a priority 
to try to ensure sufficient funding for the proper functioning 
of the courts and their related functions included in the 
judicial budget, such as probation, and pretrial services, and 
public defenders.
    For fiscal year 2011 the judiciary is requesting $6.9 
billion in discretionary funding, an increase of $453 million 
above fiscal year 2010. I look forward to the discussion of 
this request today.
    Joining us to testify in support of the budget request is 
Judge Julia Gibbons of the U.S. Court of Appeals for the 6th 
Circuit. Since 2004 Judge Gibbons has also served as Chair of 
the Budget Committee of the Judicial Conference. Judge Gibbons 
has testified before this subcommittee for the last few years, 
and we are pleased to have you here again.
    Also appearing before the subcommittee today is James Duff, 
the Director of the Administrative Office of the U.S. Courts. 
Mr. Duff was appointed to this position in 2006 by Chief 
Justice John Roberts. In the late 1990s he served for 4 years 
as Administrative Assistant and Chief of Staff for Chief 
Justice William Rehnquist.
    We welcome you both today, and we very much look forward to 
hearing from you about the resources that are needed by the 
Federal judiciary. We certainly do like to see you. Our 
conversations are always lively, and you are probably the envy 
of so many not having to vet your budget with that other place. 
But that is not your comment, that is my comment.
    And now my colleague, Mrs. Emerson.

                     Mrs. Emerson's Opening Remarks

    Mrs. Emerson. Thank you, Mr. Chairman. Judge Gibbons, 
Director Duff, thank you so much for appearing before us today. 
Let me also add my sincere condolences to those of Mr. Serrano 
for the loss of Court Security Officer Stanley Cooper in Las 
Vegas. His death is a real tragedy and it really does remind us 
of how important the security that these officers provide is to 
the operations of our Nation's courts. His family and all of 
the Las Vegas court's employees remain in our thoughts and our 
prayers.
    An independent judiciary that holds the trust and respect 
of all of our citizens and can resolve criminal, civil and 
bankruptcy disputes in a fair and expeditious manner is a 
fundamental tenet of our Nation. In addition, the judiciary's 
probation and pretrial service officers perform a critical 
public safety mission by supervising more than 200,000 
offenders and defendants living in our community.
    We will try to ensure that you all have the resources 
needed to accomplish your important mission, especially since 
your criminal bankruptcy and probation workload is growing. 
However, your budget request proposes an overall increase of 
$469 million, or 6.8 percent, above the fiscal year 2010 level. 
And I know, as you all are aware, our Federal deficit is 
approaching $1.6 trillion and we are going to have some 
difficult spending decisions to make. Let me assure you I am 
going to work very, very hard with Chairman Serrano to make 
sure that you all have at the Federal judiciary the resources 
to fulfill your constitutional duties.
    Thank you all for being here. I greatly appreciate the 
very, very important work you do. Thanks, Mr. Chair.
    Mr. Serrano. Thank you. You know the drill, each one of you 
is asked to do 5 minutes and no more than that so that we can 
then use 5 hours to just put you over the coals. Thank you and 
please proceed.

                     Judge Gibbons' Opening Remarks

    Judge Gibbons. Chairman Serrano, Representative Emerson, I 
am Julia Gibbons, a judge on the 6th Circuit Court of Appeals 
and Chair of the Judicial Conference Committee on the Budget. 
With me today is Jim Duff, Director of the Administrative 
Office of the U.S. Courts.
    First, let me say how much all of us in the judiciary 
appreciate your words about the death of Court Security Officer 
Stanley Cooper and the wounding of Deputy Marshal Joe Gardner. 
That tragedy serves as a poignant reminder to us of the fact 
that those who strive to protect us may indeed give their lives 
or their health for our protection. And of course these workers 
are there not only to protect judges and the people who work in 
the courts, but also all the citizens who have some occasion to 
come before the United States courts. And so I think it is a 
very sobering reminder to all of us of the serious nature of 
security concerns and the work that these individuals do on our 
behalf.
    Let me begin by thanking you and your colleagues for making 
the judiciary a funding priority in the fiscal year 2010 
appropriations cycle. Because of the funding provided by 
Congress, along with our aggressive cost containment 
initiatives, the courts are in sound financial shape for 2010. 
The funding you have provided will allow us to finance 
continuing operations of the courts and to meet our growing 
workload needs.
    We are also grateful for several legislative provisions in 
the omnibus bill, most notably an increase to $125 per hour in 
the hourly rate for private panel attorneys who represent 
indigent defendants in non-capital cases and the extension of 
three temporary district judgeships that were about to expire.
    All of us in the Third Branch, Mr. Chairman, remain 
concerned about the economic problems facing the country and 
understand the need to rein in Federal spending in the face of 
historic budget deficits. In fact, this concern prompted the 
Judicial Conference's decision to transmit a fiscal year 2011 
request that reflects the lowest percentage increase sought by 
the judiciary in more than 20 years. We are not only judges and 
staff supporting the Third Branch; we are also citizens and 
taxpayers and we recognize fully the need for fiscal austerity 
in a period of mounting Federal debt.
    We are very much aware that the President's 2011 budget 
proposes freezing overall discretionary non-security spending 
for the next 3 years. We note, however, that within that 
overall freeze the President has requested increases for 
several executive branch agencies' programs that directly 
impact the judiciary's workload.
    Our request for a 6.8 percent increase may appear high in a 
tight budget environment, but I assure the subcommittee that we 
are only seeking the resources we believe are needed to carry 
out the work of the courts. In the salaries and expenses 
account our requested staff increases are based only on 
projected caseload growth, and our workload is increasing 
nearly across the board. And if Congress approves the 
President's request for the Department of Justice and the 
Department of Homeland Security, our criminal and probation 
workload will continue to grow.
    Our bankruptcy workload continues to grow as well. In 2008, 
bankruptcy filings grew 29 percent followed by a 35 percent 
increase in 2009. We expect to see another 20 percent increase 
in filings in 2010 to nearly 1.6 million. Most of these are 
filings by individuals, but there are a growing number of 
Chapter 11 business filings, some of which are large, complex 
cases such as Lehman Brothers, General Motors, and Chrysler.
    Many economists expect the unemployment rate to remain high 
for several years, and if that prediction materializes, we will 
continue to see workload growth in the bankruptcy courts that 
will necessitate funding for additional court staff.
    For the details of the 2011 request, we request $7.3 
billion, an increase of $469 million over the 2010 enacted 
appropriations level. Of the request before you, $385 million, 
or 82 percent of the increase, is for standard pay and non-pay 
inflationary adjustments and for adjustments to base reflecting 
increases in our space, information technology, defender 
services, and court security programs. The remaining $84 
million is for new court support staff positions largely in the 
bankruptcy clerks' offices, program improvements in our 
information technology program and an enhancement in our 
defender services program to increase the hourly rate for 
private panel attorneys representing indigent defendants in 
criminal cases to the statutorily authorized rate of $141 per 
hour. We are very appreciative of the $125 rate you provided 
for panel attorneys this year, and especially appreciative of 
the $139 that this subcommittee recommended for 2010, but we 
believe that the increase to $141 per hour is warranted to 
ensure qualified representation for these defendants.
    Our budget reflects our continued efforts to contain cost. 
We are now more than 5 years into an intensive effort to reduce 
cost throughout the judiciary, and our cost containment program 
is producing results. To date we have achieved the most 
significant cost savings in our space and facilities program, 
and GSA has been very cooperative with us in the cost 
containment efforts in this area.
    There is a much more detailed statement about cost 
containment in my written testimony. Containing cost is a top 
priority for us.
    I would ask that my entire statement be placed in the 
record along with the statements of the Administrative Office, 
the Federal Judicial Center, the Sentencing Commission, the 
Court of Appeals for the Federal Circuit, and the Court of 
International Trade. And of course I am available to answer 
fully your questions.
    [The statement of Judge Gibbons follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Thank you so much.

                    Director Duff's Opening Remarks

    Mr. Duff. Good morning, Chairman Serrano and Representative 
Emerson. I am Jim Duff, Director of Administrative Office of 
the Courts. It is a pleasure to be here with you this morning.
    I know the families of Stanley Cooper and Joe Gardner will 
very much appreciate your kind remarks this morning. Thank you.
    I echo Judge Gibbons' remarks and thank you for making the 
judiciary a funding priority for the 2010 appropriations cycle. 
I would add we are also grateful for the funding the 
subcommittee provided to GSA for four courthouse construction 
projects even though they were not included in the President's 
budget for 2010. You honored the request that we made for those 
through the funding you provided to GSA.
    The 2010 funding you provided will allow the Administrative 
Office to continue to fulfill its mission providing a broad 
range of support to the Federal courts nationwide. It is a 
mission that we have been dedicated to since 1939 when the 
office was created. We have evolved over the years to meet the 
changing needs of the judicial branch, but service to the 
courts has been and remains our basic mission.
    Turning to our fiscal year 2011 budget request, the 
Administrative Office seeks $87.3 million for the upcoming 
fiscal year; that is a 5 percent increase over 2010. Our 
requested increase is primarily comprised of pay and non-pay 
inflationary adjustments that are needed to maintain current 
services. The request also includes funding for four new 
positions to address high priority program requirements that 
are critical to the operation of the courts.
    Specifically, two positions are requested to support a 
comprehensive modernization and consolidation of the 
judiciary's nationwide accounting system. It is a multi-year 
effort that will provide the judiciary with significant 
improvements in its accounting of appropriated funds. A third 
position is for a database manager to oversee the replacement 
of the primary information technology system in probation and 
pretrial services, and the fourth position is to address the 
very pressing workload demands in what are very high profile 
and complex facilities and securities functions at the AO.
    I will note that this is our first request to fund 
additional staff at the AO in 6 years. When I arrived at the AO 
we imposed a hiring freeze and haven't requested any funding 
for new staff in the time I have been there, and now that the 
budget is tightening up we are coming back and asking for four 
additional positions. So I am very popular with my staff. They 
say, we told you so. But this is our first request in 6 years 
for additional staffing.
    Before I close, let me return briefly to funding for 
courthouse construction. For the second year in a row, the 
President's budget for the GSA does not request funding for new 
courthouse construction projects that reflect the priorities of 
the judiciary as detailed in the Judicial Conference's 5-year 
courthouse construction plan. But for 2011 the judiciary's 
courthouse priorities are in Mobile, Alabama; Nashville, 
Tennessee; Savannah, Georgia; and San Jose, California. Each of 
those is critically needed to address major operational 
deficiencies at those locations, and I have included our 5-year 
plan as an attachment to my prepared testimony. I urge the 
subcommittee to consider the priorities of the Judicial 
Conference, with regard to courthouse projects and include 
funding in your 2011 bill for the four projects I just 
mentioned.
    That concludes my oral remarks and I would be happy to 
respond to any questions and ask that my written statement be 
included in the record.
    [The statement of Mr. Duff follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Without objection, both statements will be 
included in the record. We thank you for your testimony. 
Obviously during the questioning period you can both decide to 
answer.

                           BANKRUPTCY FILINGS

    The fiscal year 2011 Federal judiciary budget request is 
$7.3 billion, which would include funding for an additional 
1,137 full time equivalent employees, an increase of 3.3 
percent over the 34,663 FTEs provided for last year. The 
largest of these increases is for bankruptcy staff, 483 FTEs. 
According to CRS, in 2009 total bankruptcy filings in Federal 
courts increased by 31.9 percent to about 1.4 million from 1.1 
million in 2008. Bankruptcy filings due to non-business debts 
total 1,412,838, a 32 percent increase from 2008. Business 
filings in 2009 total 60,837, an increase of 40 percent from 
2008.
    So my questions are do you anticipate that bankruptcy 
filings will increase at a similar rate for this year and in 
2011? Secondly, can you talk in more detail how your requested 
increase in funding for 2011 specifically addresses the 
possible continuing upward trend of bankruptcy cases? And 
lastly, are bankruptcy courts doing anything to promote 
financial literacy?
    Judge Gibbons. I will address first the filing situation 
and then address the financial literacy piece of it. Our 
projections, which are arrived at by means that are 
understandable fully only to the people who do these 
statistical projections, but we are thinking 20 percent growth 
for 2010, which is still a very substantial increase, although 
somewhat less than we saw in 2008 and 2009. I think you and I 
are noting slightly different percentages, but that is probably 
because our figures are from June to June and you may have 
fiscal year figures. We have 29 percent and 35 percent growth 
for 2008 and 2009, and 20 percent for 2010.
    One thing that is worth noting about the bankruptcy 
situation is that it is not just the increase in filings that 
we have experienced. As you know, after the passage of the new 
bankruptcy legislation in 2005 our filings declined 
substantially, but the workload required to process an 
individual bankruptcy case did not decline, but in fact 
increased.
    We now have data showing that, after the passage of that 
statute, the typical Chapter 7 case required 12 percent more 
processing time, and Chapter 13 cases required double the time. 
The number of docket entries nationwide at the end of 2007, at 
a time when the filings were quite depressed, was actually 
about the same as it was prior to the passage of the statute, 
and the number of motions filed and the number of orders that 
judges were required to generate increased. So this increase in 
filings comes in addition to the increase in per case workload 
that was precipitated by the passage of the 2005 statute.
    So that is all a part of the background of why we feel that 
we really must have the increase in staffing in the bankruptcy 
courts.

                           FINANCIAL LITERACY

    With respect to financial literacy, the most prevalent 
program is one called CARE, or Credit Abuse Resistance 
Education program and it was started by a bankruptcy judge in 
the Western District of New York and now is in all 50 States. 
It is directed at high school seniors and college freshman. 
Bankruptcy judges, attorneys, court staff, and bankruptcy 
trustees all participate, and they engage in outreach to the 
targeted group, explaining to them the wise use of consumer 
credit, and this is a group that of course is most at risk for 
credit abuse.
    Our judiciary web site also contains a couple of tools that 
are available to the public. I brought demonstrative evidence. 
This DVD is Bankruptcy Basics, Chapter 7 and Chapter 13 for 
Individuals. It is on our web site. It gets about 4,000 to 
5,000 hits per month. The Spanish language version will be 
posted this spring. It has basic information about bankruptcy.
    Then there is another program that is more directed toward 
financial literacy, Your Day in Bankruptcy Court, that is on 
the web site and it is designed actually for young people, 
principally high school students, and it leads them through a 
series of scenarios that illustrate common financial pitfalls, 
the consequences of bankruptcy, and so on.
    So we are doing work in that area.
    Mr. Serrano. Any comments?
    Mr. Duff. Mr. Chairman, I would just like to compliment our 
staff in the courts, particularly on the bankruptcy courts for 
the work they have done this past year. I visited them after 
the massive filings in New York. They handled it wonderfully. 
They worked hard and prepared very well for it. And it is some 
measure I think of how well they handled the matters in that it 
received very little publicity, the big bankruptcy filings.
    Mr. Serrano. Yes.
    Just one side comment, one added comment, part of my 
personal agenda is to make sure that our language changes. When 
we say the 50 States, we always say and the Territories. And so 
I would hope----
    Judge Gibbons. Oh, I am so sorry, Mr. Chairman.
    Mr. Serrano. It is not going to cost you a penny, trust me, 
trust me. It is not you, it is the whole Congress, the Senate, 
the staffs, you know. I am not going to get into it, but if you 
look at the health care bill there is health care for 50 States 
and there is a little addition for the Territories. The 
education bill is for the 50 States and then there is a little 
addition to the Territories. Only sending troops to Iraq and 
Afghanistan is there equality across the spectrum where 
everybody gets treated equally.
    So I would be interested in knowing what units of the CARE 
program could be available in the Territories, especially as 
you move into the Spanish version, it certainly could be used 
in other places.
    Judge Gibbons. I, of course, unfortunately have no reason 
to know--obviously to the extent the other programs I talked 
about are on the web site, they are available. I don't know 
about the CARE program, but I will certainly find out and 
suggest that if we have not addressed the need in the 
Territories, we do so promptly.
    Mr. Serrano. Thank you so much.
    [Clerk's note: Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    The Credit Abuse Resistance Education (CARE) program is a 
free financial literacy initiative that makes experienced 
members of the bankruptcy community available to teach the 
importance of financial education. CARE's primary target 
audience is high school seniors and college freshmen who are 
most at risk because, as active consumers, they are 
aggressively marketed by the credit card industry at a time 
when they are not financially savvy.
    CARE was founded in 2002 by Judge John C. Ninfo, II, a 
federal judge in Rochester, New York. CARE is not a national 
federal Judiciary program, rather it is a grassroots effort 
that depends on professionals in local bankruptcy communities 
to sponsor financial literacy programs. Many bankruptcy judges 
and court staff are active participants who teach in the 
program. While Judge Ninfo strongly encourages establishing a 
CARE program in as many locations as possible, it is up to the 
local bankruptcy community to sponsor a CARE program. CARE has 
a presence in all 50 states and the District of Columbia but 
there is not currently a CARE program in any of the U.S. 
territories. Judge Ninfo has indicated he will continue to 
reach out to the bankruptcy community in Puerto Rico to 
encourage them to establish a CARE propgram there. Puerto Rico 
led the territories in bankruptcy filings in calendar year 2009 
with 11,342 filings. (Guam had 221 bankruptcy filings, the 
Virgin Islands had 29 filings, and the Northern Mariana Islands 
had 8 filings.)
    There is also a broad range of CARE program materials 
available online (www.careprogram.us) in the form of handouts, 
videos, Powerpoint presentations, and games that can be used by 
parents, teachers, and others to teach financial literacy. Some 
of the materials are available in English and Spanish.

                 PANEL ATTORNEY NON-CAPITAL HOURLY RATE

    Let me ask one more question before I turn to Mrs. Emerson. 
For 2010 the non-capital panel attorney rate was increased to 
$125, as you mentioned, as we know. The 2011 request for these 
attorneys would increase to $141, which is $2 above what we 
hoped, this committee hoped last year you would receive. Has 
the increase had a positive affect on attracting and retaining 
panel attorneys? Other than increasing the pay for panel 
attorneys, what efforts are being pursued to recruit the best 
attorneys in the Federal courts? And lastly, what do you 
anticipate would be the effect of not receiving funding for an 
increase in an hourly rate?
    That is a softball question. You could tell me the system 
will fall apart.
    Judge Gibbons. Well, you know of course we hope and believe 
that the increase will have some positive effect, but it is 
really too early for us to be able to evaluate that and to tell 
because there is a delay in the submission of vouchers. There 
is a delay in knowing what the representation is, but certainly 
I think we have to assume it would have a positive impact. At 
the same time, we have long had the ultimate goal of taking the 
panel attorney rate to the statutorily authorized maximum, 
which was $139 last year, now would be $141.
    Our feeling is that we are going to continue to have some 
recruitment issues with respect to attracting the qualified 
counsel and that, even at the statutorily authorized maximum, 
this is a pretty modest hourly rate for attorneys who are 
called upon to represent criminal defendants in a complex, 
fairly specialized area of practice, particularly when you 
consider, one, the important rights at stake and, two, the 
complexities of the Federal sentencing system.
    For retained counsel the average hourly rate is $246 an 
hour, almost twice the $125. When you consider that overhead 
averages $70 an hour, your panel attorney at $125 is left with 
$55 an hour in compensation, while your average retained 
counsel is left with $176.
    So while we are very appreciative of the increase, and of 
course we believe it will help, we do believe that there is a 
real need for a greater rate.
    You asked about attracting qualified attorneys into the 
Federal court. Yes, there are some efforts that are made, but 
they are generally not made on a national level. They are 
generally made on the individual court level where a court, in 
communication with the lawyers, local lawyers who are 
available, seeks to recruit a highly qualified panel of 
attorneys. I was in the district court for 19 years before I 
went to the Court of Appeals, and over the years we did a good 
bit to make sure that the lawyers on our panel were indeed 
qualified. If somebody called up and said, I want to be on the 
panel that didn't appear appropriate for the panel, we didn't 
add them to the panel. And then we tried to encourage the very 
best lawyers to stay on the panel even when they came to us and 
said, judge, we just can't afford to do this anymore. We 
weren't always successful, but yes, we did try. And I feel sure 
most courts make similar efforts.
    Now, was there another part of that that I forgot?
    Mr. Serrano. I might have forgotten the question right now.
    Mrs. Emerson.
    Mrs. Emerson. I am trying to stop laughing.

                          COURTHOUSE SECURITY

    Judge Gibbons, we mentioned the terrible tragedy that 
happened in the courthouse in Las Vegas. We have had the plane 
crash in the IRS building in Austin, Texas. We have had the 
shootings at the Pentagon and all of it highlights the need for 
more security or some other form of security at our Federal 
facilities. I know that you all within the judiciary operate a 
lot of older buildings, having had an office in one of those in 
previous years, and I think that obviously there are many 
courthouses that don't meet today's security standards.
    So if you could just fill me in a little bit on whether you 
are working with the Marshals Service or with GSA to, number 
one, identify all of those facilities that don't meet the 
security standards and then how you are addressing those 
security shortfalls, and can we do that without building 
entirely new buildings?
    Thank you.
    Judge Gibbons. Because the Administrative Office has been 
extensively involved in that work, I believe Jim might be the 
more natural person to answer that question. So I will turn to 
him.
    Mr. Duff. Thank you, Judge Gibbons. What we have done, 
Representative Emerson, is to adjust our priorities on 
courthouse construction projects. In a sense security remains a 
very important element obviously in protecting our judges and 
the public who go to our courthouses, but security was an 
aspect of new courthouse construction projects. It fueled the 
formula that determined which new courthouses we sought. When 
the budget started constricting and the money became tighter 
for courthouse construction, we haven't shifted priorities on 
security, but we are creating a new security priority list for 
courthouses that need security upgrades. And we haven't taken 
it entirely out of the courthouse construction criteria for 
funding, but it is a reduced proportion, I guess, in the 
formula we use in seeking new courthouse construction projects. 
But we have created a new list for security priorities and we 
are focusing on the courthouses that need security the most, 
and there are a lot. Many of the buildings are outdated in that 
regard, and we have been very aggressive about identifying 
those and seeking funding for security upgrades.
    Mrs. Emerson. You know, Mr. Chairman, I wonder if it might 
not be something worth looking into, the idea of perhaps 
designating a certain fund within the General Services 
Administration that would be designated just for this sort of 
thing as opposed to having to duke it out with everybody else 
who is trying to get those sorts of funds. But it seems to me 
that we seem to have increasing number of incidents here. It 
might be something just to explore. I don't know. As long as 
you all get the money to do it, it doesn't matter which pot but 
I am just thinking it might be something that is worth pursuing 
anyway.
    Mr. Duff. Thank you for that idea.
    Mrs. Emerson. We will try to have a discussion about it.
    Mr. Serrano. I am listening, I am listening.

             IMPACT OF HIGH THREAT TRIALS IN FEDERAL COURT

    Mrs. Emerson. Let me turn to the Gitmo detainee trials if I 
might. I know that the budget request includes a $22 million 
increase for high threat trials. I also understand that this is 
an estimate of your costs for defender services, for jurors, 
for security requirements associated with potential trials of 
Khalid Sheikh Mohammed and other 9/11 coconspirators. It is 
also obvious that it is going to be an enormous cost, not only 
at the Federal level, but also at the State and the local level 
as well.
    Now the chairman and I may disagree about where they think 
these trial should be. I personally don't think they should be 
in U.S. Federal courts, but that is not your decision and it is 
probably not my decision either. But nonetheless, I do know 
that if these terrorists are tried in the U.S. Federal courts 
the judiciary and the Marshals Service is going to have to do 
everything possible to perform these in a safe and efficient 
manner.
    So I would like to hear from you on how high threat 
terrorism trials impact the operations of a court and other 
litigants; for example, on days when there is a high threat 
case, what happens to the other cases and what other security 
concerns might come into play?
    Answer that and then I have got a couple of follow-ons.
    Judge Gibbons. Well, your question really recognizes, I 
think, that you understand that of course the $22 million is 
our guess, because of course we don't know what the situation 
will be, and there are many, many variables that affect the 
cost depending on what location we are talking about. For 
example, if you are talking about a district court, among the 
things that could be involved from a cost perspective are what 
kind of technology is already available in the court and what 
sort of technological needs there might be for the trial. There 
is a public information function. I mean the courts aren't 
normally in the business of going out and telling folks what 
they are doing because there is usually plenty of room for the 
press in the courtroom. But a big trial, a high security trial 
raises some issues in how you are going to make information 
about what is going on available and how you are going to 
accommodate the news media and the public interest. There are 
case management issues, high numbers of filings, there may be 
more court personnel required to handle the case than normal. 
There will be additional jury costs, there will be costs and 
issues to be considered concerning jury selection, are the 
jurors at risk, sequestration issues possibly. Just what do we 
need to do with respect to the jurors? Are there extra viewing 
areas, are we going to set up remote locations? Is the 
defendant demanding his speedy trial rights promptly? Are we 
going to have a situation where there is a protracted time for 
preparation because everybody wants time to get ready or are we 
going to have a more compressed time?
    Defenders are another potential cost. Is the defendant 
going to need court appointed counsel? What sort of security 
clearances may defense counsel need to obtain? Is this a death 
eligible crime and what expenses will be associated with the 
process of determining whether the Justice Department will seek 
the death penalty?
    Security is another cost. Additional equipment perhaps, 
additional areas; for example, the coordination issue you 
talked about with folks entering for this trial versus folks 
entering for a normal court proceeding. And how do you ensure 
that the people aren't mixed up and that you get people where 
they need to be in order to be properly screened. Personnel to 
conduct the screening and the security exercises is another 
cost. How high risk is the defendant? What risk is there to 
witnesses or what risk do witnesses pose? Are there external 
threats coming in involving the people involved in the 
proceedings because it is high risk trial? Is somebody 
threatening to disrupt or harm?
    So many, many, many things.
    Mrs. Emerson. What about the impact on the surrounding 
community?
    Judge Gibbons. Well, that is another thing, and that is a 
part of the assessment obviously that the marshals would have 
to do presumably in conjunction with local law enforcement.
    So there are just many things to consider in connection 
with this, many variables. Our expense figures represent our 
best estimate, but obviously without a great deal of knowledge. 
No, I don't mean knowledge, we don't lack knowledge about how 
to do it, we just lack knowledge as----
    Mrs. Emerson. As to whether or not.
    Judge Gibbons. As to whether or not we are going to have to 
do it.
    Mrs. Emerson. Believe me I got it, I understood what you 
were saying.

                  DEFENSE COSTS IN HIGH-THREAT TRIALS

    You also include $15 million of an increase for the 
defender services costs for these types of trials, and I 
understand that in many cases it is less expensive to use a 
Federal public defender to provide representation instead of a 
private panel attorney, but that in multi-defendant cases the 
Federal defender can only represent one person.
    So how would you manage the cost of representing KSM and 
the other 9/11 coconspirators, defendants if these cases go to 
Federal court, one? And do you know what the representational 
costs were for other high profile people like Timothy McVeigh 
or Ted Kaczynski or Moussaoui?
    Judge Gibbons. I do not have specific figures for either 
the Kaczynski or McVeigh trials. I don't have the specific 
figures for the Moussaoui situation either, but I do know that 
our $15.6 million estimate was based in part at least on the 
defense costs for him.
    As far as getting a handle on the cost, there are things 
that courts can do, that we often do in death penalty cases, 
case budgeting where the lawyer essentially prepares a budget 
and then it is subject to court approval, not just at the level 
of the judge who is going to be trying the case, but sometimes 
involving a circuit approval in advance. There are a number of 
tools that can be used to try to get an advance view of how 
costly it is going to be, but I am sure that you recognize that 
in the course of representation it would be a little hard to 
predict what is going to happen in these cases if you only look 
at the course of the Moussaoui trial and all the various things 
that happened. Neither defense counsel nor the court could have 
predicted that.
    Mrs. Emerson. I appreciate that. If there is any way you 
could get your hands on at least the cost of the Moussaoui 
situation I would be grateful to you.
    Judge Gibbons. I think we can provide that and I think we 
also can probably provide the costs associated with earlier 
proceedings.
    Mrs. Emerson. Thank you, Judge.
    Mr. Duff. I am told that the McVeigh trial was about $16 
million, but we will get the other figures for the record.
    Mr. Emerson. Thank you.
    [Clerk's note: Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    The information in the table below provides defense 
representation costs for the McVeigh, Kaczynski, and Moussaoui 
cases. The information provided below for defense 
representation costs in the McVeigh case ($13.8 million) 
refines the $16.0 million figure quoted by Director Duff in his 
testimony.
----------------------------------------------------------------------------------------------------------------
                                                            Defense
                                                        representation   Charged with death
            Defendant                      Case              costs        penalty-eligible     Case disposition
                                                          (millions)          offense?
----------------------------------------------------------------------------------------------------------------
Timothy McVeigh..................  Oklahoma City                $13.8   Yes................  Convicted and
                                    Bombing.                                                  sentenced to
                                                                                              death. Executed
                                                                                              June 11, 2001.
Theodore Kaczynski...............  Unabomber..........            2.5   Yes................  Pled guilty and was
                                                                                              sentenced in May
                                                                                              1998 to life in
                                                                                              prison without the
                                                                                              possibility of
                                                                                              parole.
Zacarias Moussaoui...............  September 11th Co-             9.7   Yes................  Pled guilty and was
                                    Conspirator.                                              sentenced in May
                                                                                              2006 to life in
                                                                                              prison without the
                                                                                              possibility of
                                                                                              parole.
----------------------------------------------------------------------------------------------------------------

                           HIGH-THREAT TRIALS

    Mr. Serrano. Thank you so much. Let me just pick up on 
that.
    You just painted a very bleak picture if we do this in 
Federal court, and I am not suggesting that you did it 
purposely. You just told us what your feelings are. But we have 
had, my understanding, over 100 of these trials in this country 
already. Is it that everybody reacted to New York City, that 
wonderful town, and that somehow every media outlet in the 
world would show up and the tourists from Times Square would 
want to see the trial?
    For the record, I am the last standing New York City 
elected official who supports the idea of having the trials in 
New York. That train left the station. On that issue I am 
probably the most unpopular of any party in New York. But my 
feeling is that the terrorists have different ways of winning 
or trying to win, and one of the ways that we cannot win is if 
we run away from our own system and hide them somewhere because 
we are afraid to take them on in open court.
    One of the things they did on September 11th that nobody 
wrote about, people forget, we know certainly the most 
important part is the lives they took and the destruction they 
caused and the disease condition of the workers that are still 
being felt in New York. But if you were writing a book about 
the impact and the symbolism of attacking the financial center 
of our country, the military center of our country, and then 
they were either heading for the White House or for the Capitol 
as a legislative branch or the executive branch. They also did 
something else that nobody has ever written about. It was 
election day in New York and that election was canceled or 
stopped about 11 o'clock in the morning. So they disrupted our 
electoral system, which is at the center of our democracy.
    I may be wacko on this, but I continue to think there is 
nothing wrong with trying them openly in front of everybody in 
our courts and showing them that we don't run away from 
ourselves or run away from our system.
    However, my question really is if we have had all these 
trials why all a sudden the feeling that we can't afford it, 
that we can't handle it, that we can't accommodate, the people 
will show up, the security? And lastly, there is $73 million 
for part of these trials already in the Justice Department's 
budget set aside? And lastly, why do I suspect, and this part 
we probably agree on, that if we do it in a military base the 
Department of Defense with all the money they have will come 
back to us and say guess what, you know those $1,700 trillion 
you give us every month? It is not enough. We need much more in 
our supplemental budgets to pay for those trials.
    Am I wrong on all this? I don't want you to answer to the 
fact that I am the only New Yorker who still says it is okay in 
New York.
    Judge Gibbons. You can understand of course that the 
judiciary is neutral on this issue. I mean, we are not taking a 
position and would not take a position----
    Mr. Serrano. But with all due respect, you may be neutral, 
but the picture you just painted----
    Judge Gibbons. I know. I am about to get to that. I 
certainly did not mean to paint a bleak picture, and that is 
why I said at the end of my answer to Representative Emerson's 
question that I was not trying in any way to say that we could 
not do it. And yes, you are quite right, there are many high 
threat trials that have been handled in the Federal courts.
    One of the points we make frequently with this subcommittee 
is that if it comes in the door we handle it because we are 
courts and that is what we do. And so none of that should be 
interpreted as a statement on my part that we can't do it, that 
we can't afford it. My only purpose was to try to communicate 
to this subcommittee the indefiniteness of our estimate about 
the cost because of all the variables. It does not have any 
other connotations and should not be interpreted as having any 
other connotations.
    It is probably best that I not go into a little song and 
dance about the wonders of the Federal courts at this point, 
but I certainly have the greatest confidence in our judicial 
system and in all my colleagues in the system, and also great 
confidence in our employees and the folks who when they are 
presented with a situation handle it appropriately and are very 
much up to the task.
    So please don't read more in that than I intended. It was 
just intended to be a listing of the variables that will come 
into play in terms of how one would handle such a situation 
when presented with it.
    Mrs. Emerson. Let me say, Mr. Chairman, that I did not 
assume in any case whatsoever that Judge Gibbons was making a 
judgment one way or the other. I just was curious as to all of 
the different pieces that went in and whether $15 million would 
possibly cover even one high risk--so I did not interpret you 
as being anti at all, I just want you to know.
    Mr. Serrano. And again for the record, you are highly 
respected by this subcommittee and everybody in this Congress. 
We didn't intend to say that either. It is just that you almost 
painted a picture of we can't handle it.
    Judge Gibbons. Oh, no, no, no, not intended to be the 
message at all.
    Mr. Serrano. I know you can handle it if we had to do it 
that way.

                       NATURALIZATION CEREMONIES

    Let me bring you to a happier issue, an issue which for 
many people is a problem at the beginning but ends up being 
very happy, and that is when people take their oath of 
allegiance to become citizens. During last year's hearing we 
discussed a report from the ombudsman for the Citizenship and 
Immigration Services that criticized the judiciary for delaying 
ceremonies and have recommendations for improving the process. 
I know that you strongly disagree with both the results of the 
report and how it was conducted. That aside, I understand there 
were some delays in the process from time to time.
    Have there been any changes in the handling and scheduling 
of these ceremonies since last year?
    Judge Gibbons. To the extent there was a problem then, and 
you know we do quibble about that to some extent, we believe 
that any problem has been resolved. Staff from the AO met with 
staff of the U.S. Citizenship and Immigration Services several 
times, invited those folks to meet with our District Court's 
advisory group. That meeting went well. We offered to set up a 
focus group of clerks from courts that have a high number of 
citizens to be naturalized to deal with ongoing issues, but we 
were never taken up on that offer, and we believe that the 
relationship between the court that was the main subject of the 
ombudsman complaint and the regional office for the Citizenship 
and Immigration Service, we believe that the issues pertaining 
to that relationship have improved greatly, that their 
relationship has improved greatly.
    Mr. Serrano. I must say I will make an announcement here 
that it is not official yet, and I will make it here and it is 
open to both of my colleagues to join me. I am going to try to 
lighten the burden on the courts. To me there is nothing better 
than going to a citizenship ceremony. So I put in a bill 
yesterday that will allow Members of Congress and Senators to 
swear in, to give the oath of allegiance to new citizens. And I 
am just tired of seeing all those other folks have all that 
fun. I want to be able to give the oath to people in my 
district because that is a great day and you see those American 
flags waving and you see all the different folks of different 
cultures and different communities. It is just wonderful. So I 
am going to try to alleviate the burden by having some of us do 
the swearing-in.
    Judge Gibbons. As an experience I highly recommend it. It 
is really one of those lump in the throat moments.
    Mr. Serrano. It happened because a lady in my district who 
became a citizen, very active person, said I want you to swear 
me in. I said, gee, what a great thing. Then I called up and 
said oops, oops, you can't do it, it is not allowed.
    Speaking of that, I now turn to a man who comes from a 
State that has a lot of swearing-in ceremonies, Mr. Boyd.
    Mr. Boyd. Thank you very much, Mr. Chairman. You are right 
we do have a lot of swearing-in ceremonies.
    First, let me apologize for being late to the witnesses and 
to you, Mr. Chairman and Mrs. Emerson. You know how these 
schedules are, but I appreciate----
    Mr. Serrano. Besides there is another little issue being 
discussed these days around here that takes time.
    Mr. Boyd. Yes.
    Mr. Chairman, I was interested in your comments about your 
legislation. I take part in a swearing-in ceremony every 4th of 
July that is done in our City of Tallahassee, and I have always 
enjoyed that. It is a great honor to be there. So now we won't 
have to have the Federal judge do it, I understand, I can do it 
myself.
    Mr. Serrano. My bill, if you care to cosponsor, was 
introduced yesterday, would allow you to give that oath.
    Mr. Boyd. Only if I could cosponsor it though, right?
    Mr. Serrano. No, no, my bill covers you even if you vote 
against it.
    Mrs. Emerson. We could attach it to the appropriations bill 
and make sure it gets through and not have to hassle around 
with omnibus.
    Mr. Serrano. You don't legislate on an appropriations bill.

                         PANAMA CITY COURTHOUSE

    Mr. Boyd. Judge Gibbons and Mr. Duff, thank you for being 
here. I will be very brief, and I know this is not part of your 
budget. The construction part is GSA.
    I represent the Northern District of Florida, including 
Panama City, and we have been trying desperately, myself and 
the people in that community for the 14 years that I served in 
Congress, to build a new Federal building because that one 
there is a leased building and, according to your folks, it is 
very inadequate. And we think we have gotten close sometimes 
but gotten on the list, and then it drops back and so on and so 
forth. My question really to you is if you would care to share 
with us your thoughts on the pace of the courthouse and Federal 
building funding and whether or not you believe it is keeping 
pace and how far behind are we falling?
    Judge Gibbons. Do you want me to try?
    Mr. Duff. You go ahead and start and I will wrap it up.
    Judge Gibbons. You know certainly I think within the 
judiciary from time to time we have wished that the execution 
of our 5-year plan was more within our control, but of course 
it is not only a matter of getting an appropriation, but it is 
not an appropriation to us directly for it. We do have a very 
controlled process for assessing needs for new courthouse 
construction. It is called Asset Management Planning. We 
adopted it as a part of our cost containment initiative and it 
replaced our earlier methodology for determining courthouse 
needs. Cost is more of a driver now than it was previously.
    And so I don't know anything about your specific situation, 
perhaps Jim does, but sometimes localities do think they need a 
courthouse and sometimes they do have a real need, but 
sometimes that need doesn't quite get the courthouse to the top 
of the list.
    Mr. Duff. And I would just add----
    Mr. Boyd. If you could when you address it, the list, I 
know we have been on the list, we have slipped back and those 
kinds of things. I understand you are trying to strengthen the 
process you are involved in, but can we strengthen the whole 
process?
    Mr. Duff. Well, Representative Boyd, I think it is a 
function of the overall budget of the country, too, trying to 
be tightened. We are seeing some more restrictions placed on 
projects that we would like to see move that have been on the 
list before.
    One clarification for Federal buildings, not just 
courthouses, but for Federal buildings, GSA really takes the 
laboring oar on that and requests money for Federal buildings. 
Our 5-year plan really only provides for stand-alone 
courthouses. But we certainly participate in and inform the GSA 
decisions.
    Mr. Boyd. Just to clarify, and to make sure we are on the 
same track, this is a courthouse.
    Mr. Duff. Stand-alone courthouse?
    Mr. Boyd. Yes.
    Mr. Duff. We would like more, too, but I think it is a 
function of the overall effort to hold the budget in check as 
best the government can.
    Mr. Boyd. So I assume from that answer that you think the 
building, the funding of the buildings that we have been doing 
is not adequate, it is slipping us further behind as we go? And 
can you speak to how you can strengthen that process? I 
understand that you can point to us rightfully so, but how can 
we solve this problem?
    Mr. Duff. Well, we have been very aggressive in our cost 
containment efforts to try to reduce the costs of the 
courthouses. We have done studies on space. We are doing some 
courtroom sharing now, and our magistrate judges and senior 
judges are sharing courtrooms. We have been very vigilant as 
stewards of public funds to try to find ways to reduce the 
overall cost of building courthouses and thereby advance other 
projects and move them along more quickly than perhaps they 
could have been moved before. But the ultimate funding decision 
of course rests with all of you.
    Mr. Boyd. In your experience does solving the location and 
site purchase problem? I even had a situation where we had the 
location, we had the location donated to us, and we still 
weren't making the kind of progress we needed to make, slipped 
back instead of up.
    Mr. Duff. There are a number of factors that go into the 
priority list, and some become more urgent than others, some 
are very critical. It is hard to explain to those in line 
waiting for it because everyone's needs are great, but we do 
the best we can with leveling the playing field and treating 
all equally with limited funding. We do the best we can with 
it.
    Judge Gibbons. I was just going to say it is a very 
difficult thing because there are many, many good, sometimes 
even compelling arguments with respect to courthouses that end 
up not being built for a very long time.
    Mr. Boyd. Mr. Duff, I see you were just passed a note. Do 
you have something to add?
    Mr. Duff. Well, I could read it. I don't think I can absorb 
it yet. The 2004 moratorium only went forward with 15 projects 
that already had money for site and design. In the meantime we 
have been reassessing all the others, and that process is 
almost completed. That is just off the top of my head.
    Mr. Boyd. No, off the top of her head. So that 
reprioritization process is underway and will be completed 
soon?
    Mr. Duff. Yes, sir.
    Mr. Boyd. Mr. Chairman, thank you for your time.
    [Clerk's note: Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    The court in question is currently located in a leased building in 
downtown Panama City, FL. Constructed in 1977, this leased courthouse 
has been renovated multiple times. The building cannot be renovated any 
further to accommodate growth.
    In 1997, the Judicial Conference approved Panama City, FL for 
inclusion in its FY 1998-2002 Five-Year Courthouse Project Plan for 
site and design funding in FY 2002. Because sufficient funding was not 
provided to support the projects preceding it on the FY 1998-2002 Five-
Year Plan, the Panama City project slipped into subsequent years until 
a moratorium on all projects was imposed by the Judicial Conference in 
FY 2004.
    In a move to control costs, 35 courthouse projects that had not yet 
received appropriated funding for site, design, or construction, 
including the Panama City project, were subject to the moratorium and 
underwent a thorough reevaluation. A separate 15 courthouse projects 
that had received some Congressional funding, many of which were shovel 
ready, have been allowed to proceed since 2004. The Judiciary's FY 2011 
Five-Year Courthouse Project Plan includes funding through FY 2014 to 
complete these projects currently on the Plan.
    The reevaluation of the space needs associated with districts where 
the 35 projects are located has been completed and a list of courthouse 
projects ranked in order of urgency has been compiled. The entire list 
will be considered by the Judicial Conference Committee on Space and 
Facilities at its June 2010 meeting. The Urgency Rank Evaluation places 
the Panama City project at number 12 on that list. However, the 
Judiciary has been hesitant to add new projects to the Five-Year 
Courthouse Project Plan until more of the projects currently on the 
Plan receive appropriated funding. Therefore, despite the reaffirmed 
need for a new facility in Panama City, it is unlikely it will be added 
to the Judiciary's Five-Year Plan for several years.

                        CAMERAS IN THE COURTROOM

    Mr. Serrano. Thank you. Under the Judicial Conference 
policy each Court of Appeals may permit television and other 
electronic media coverage of its proceedings, but only two of 
13 courts of appeals, the 2nd and 9th Circuit Court of appeals 
have chosen to do so. Has there been any data collected on the 
two circuits' decisions to allow electronic coverage and any 
associated costs? If so, what has been learned about cost and 
potential savings? Also do the 2nd and 9th Circuits have limits 
on the types of cases that they allow television coverage for? 
Have other circuits indicated that they are considering 
coverage of court proceedings?
    Judge Gibbons. I am not aware of any data that the 2nd and 
9th Circuits have collected. I do know that with respect to 
broadcasting proceedings in appellate courts I would be 
surprised if there were any significant costs one way or 
another given the growing technology that is available in 
courts. So I think that from the Conference's standpoint it has 
really not been a cost issue, but more of a policy issue.
    Mr. Serrano. Now, I don't know if you answered this part, 
do you know of any other districts that are thinking of doing 
the same thing?
    Mr. Duff. Of having a pilot project with cameras?
    Mr. Serrano. Yes.
    Mr. Duff. We do know other districts that are considering 
it. We are trying to come up with a uniform approach to it, and 
we are on the verge, I think, of doing so. We still have a 
Judicial Conference policy with regard to cameras in the 
courtroom. The Conference itself is opposed to cameras at trial 
court level for a variety of reasons, for example in criminal 
trials where witnesses can be intimidated. There are elements 
of the trial that if, we think, were put on television, could 
change the course of a trial. It could change even the fact 
that a matter would go to trial. If witnesses are intimidated, 
if plaintiffs don't want the vast public exposure that comes 
with television in the courtroom, it might intimidate 
plaintiffs who have civil rights claims or sexual assault 
claims not to feel like they could or would want to proceed.
    So we have been very cautious about it, Mr. Chairman, and 
to answer your question more directly, I think there are types 
of matters that certainly the Judicial Conference feels it 
wouldn't be a problem.
    Mr. Serrano. So tell me how these two districts are doing 
this, because I am getting a little confused here. If the 
Judicial Conference has problems with it, why are these two 
districts doing it anyway?
    Judge Gibbons. The Conference has a different policy for 
the appellate courts than for the district courts. The 
Conference policy is that trials in district courts should not 
be broadcast. The Conference policy permits appellate courts to 
do it. The 2nd and 9th are the only ones that have adopted a 
courtwide policy permitting the broadcasting of arguments. I 
have a feeling, just based on nothing other than my own 
experience, that probably there is other broadcasting going on 
and certainly other requests to broadcast that are not 
occurring as a result of a court policy.
    I know that I was a member of a panel within the last 
couple of years and I can't even remember what the case was, 
but we were presented with a request to broadcast a particular 
argument. And so I am sure that I was not on the only panel 
within the United States courts where that has ever happened. 
But I think we know only when there is a court policy of 
permitting it across the board, which is the case in the 2nd 
and the 9th.

                IMPACT OF TRIAL PUBLICITY ON YOUTH CRIME

    Mr. Serrano. All right. I remember a long, long time ago 
when I was in the State Assembly in New York that I opposed 
cameras in the courtroom and I did it based--that was the era 
of the beginning of the hip-hop generation, the hip-hop 
culture. And a lot of people think hip-hop is rap music, it was 
also dance and graffiti art form, and so on. And folks who were 
allegedly or supposedly, Jo Ann, smarter than I said that the 
kids were drawing their name on the walls as a form of 
identification, of being somebody or having people notice them. 
If that was the case, I wondered out loud then in my opposition 
if seeing a local thug on TV being tried for a crime that 
pretty much anybody knew he had committed because there were 
witnesses and everything, that would inspire people to say look 
at that publicity he is getting for that negative act.
    Fast forward to now, there are plenty of other ways 
unfortunately for young people to be invited into doing the 
wrong thing. So has anyone ever done a study on the effect on 
young people of having--because we have many ways in this 
country of being famous and well-known, you know. You could 
hold this hearing and be famous tonight on webcast to the 
dismay of half the Nation maybe or you could do something 
terrible and get all that publicity for it. Do you know if 
there are any studies that show the link between that? And by 
the way, to me those trials are totally different from Supreme 
Court proceedings. That I may also have problems with because I 
think to reach a great decision sometimes people have to bicker 
or something amongst themselves and the public wouldn't 
understand maybe how that happens. Anyway any thoughts on that?
    Judge Gibbons. I am not aware of any studies. I will say 
that I think that over time folks have begun to think about 
obviously the broadcasting of anything. I mean we live in an 
age in which communications have been entirely revolutionized 
in our lifetime, but among the reasons that still remain and I 
think are most compelling in support of the Conference policy 
are the security concerns, which seem more relevant today than 
they ever were. If you broadcast trials and you have concerns 
about safety of jurors, safety of witnesses, just many, many 
things, it would be undesirable to raise the profile of people 
who are participants in trials within the community.
    So I think those are among the gravest concerns that exist 
today.
    Mr. Serrano. I am reminded of those old black and white 
movies where the accused, the defendant is giving dirty looks 
to the jury and intimidating half of them. I can just imagine 
if that is being seen by everybody.
    Mrs. Emerson.
    Mrs. Emerson. You know, ever since we put cameras in the 
House of Representatives we don't have real debate anymore. 
Everybody does their talking points and they are totally on 
message because heaven forbid if a constituent would see you. 
And so I think it actually diminishes our ability to have good 
dialogue in the House of Representatives. So I tend to agree 
with you, Mr. Chairman, that it is not a good idea.

                    PROBATION AND PRETRIAL SERVICES

    Let me ask a few questions about probation and pretrial 
services if I could. You all project that in fiscal year 2010 
there will be 105,000 charged defendants awaiting trial and 
127,000 convicted offenders being supervised in our communities 
by probation and pretrial service officers. You request an 
increase of $7 million and 154 additional positions for 
probation and pretrial services.
    So my first question is how will these additional resources 
help ensure that people serving under supervised release are 
not posing a risk to the communities in which they are living? 
And perhaps I will add one more question with this series? How 
will the additional resources help offenders released from 
Federal prison become productive members of society and 
particularly those who have substance abuse and some mental 
health problems? 
    Judge Gibbons. The numbers that we are requesting in terms 
of staff increases are driven by the workload increases we have 
seen, but there are some very, really very exciting things 
happening in our probation offices in terms of real progress in 
effective supervision. The Federal probation offices have 
always been in my judgment highly professional, but success in 
supervision was always tied to frequency of contact and to the 
threat of violation involving proceedings before a judge.
    We now, as a result of some more modern research, are 
moving to the utilization of what are called evidence-based 
practices in supervision. We have a lot of research that we 
believe will help us in reducing recidivism. Probation officers 
have available to them data from the States, and I hope the 
Territories.
    [Clerk's note: Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    While the Judiciary is able to access recidivism data for the 50 
states as part of its evidence-based practices initiative, the 
Judiciary is unable to access recidivism data for offenders in the U.S. 
territories because those jurisdictions lack automated criminal history 
records accessible through NLETS. NLETS is a service that links 
together state, local, and federal law enforcement and justice agencies 
for the purpose of information exchange and is the Judiciary's primary 
source for accessing and analyzing recidivism data.

    Mr. Serrano. That will make me happy.
    Judge Gibbons. And they also have data that examines the 
cases of 100,000 Federal offenders to determine--some of the 
data shows recidivism patterns of Federal offenders, as I 
understand it--what has been effective with particular 
individuals. Now the probation officers are using this data to 
individualize their approach to the offender. They first look 
at this data in light of a number of factors involving the 
defendant. And the four areas they examine are anti-social or 
criminal thinking and values, whether the individual has a 
dysfunctional social network, whether his primary issues are 
lack of employment and education, and whether there is 
substance abuse, and they can determine which one of these 
areas they should focus on initially and determine whether the 
person is most in need of treatment, for example, of some kind, 
whether mental health or substance abuse, whether the person 
might be in need of education or job training, just whatever it 
is. It is a much more individualized and we hope a very 
effective approach.
    Mrs. Emerson. It is very interesting. Sometimes treating 
mental health and substance abuse issues are best done in a 
different kind of a setting.

                       SUPERVISING SEX OFFENDERS

    Tell me then, once we pass the Adam Walsh Act and we have 
been able to increase the apprehension of sex offenders, it is 
a different situation in many cases, do your probation officers 
have sufficient resources to effectively supervise sex 
offenders and protect the citizens in the surrounding 
communities from them?
    Judge Gibbons. I don't think we would complain about the 
lack of resources, particularly in light of the adequacy of our 
funding, for which we are once again most grateful. I will say 
that supervising sex offenders and helping to prevent that 
person from reoffending, that is one of the most challenging 
tasks a probation officer faces. If you get into all--and I am 
certainly no expert on this, but if you get into the data about 
sexual offenders and the difficulty of rehabilitation and that 
sort of thing, it is really a difficult task.
    They do have a lot of tools at their disposal. There is not 
only treatment, but they also do testing and polygraphs. There 
is another test that they use to ascertain whether the 
individual is succeeding with treatment and whether the sexual 
thought patterns have been altered. They can do GPS or other 
location monitoring technology to make sure the person is 
staying away from schools and other locations where children 
would be present. If the person has been an offender against 
children, they make sure there is compliance with various 
registration laws.
    Child pornography is a very common offense seen in the 
Federal courts, and it is usually accessed by the individual 
via the Internet. So the person may be prohibited from working 
around computers and often personal use of computers. So there 
is that sort of monitoring they are able to do not only for 
sexual offenders, but they are able to do in appropriate cases 
things like surveillance or searches to make sure there is 
compliance.
    Mrs. Emerson. Thank you very much, Judge.
    Mr. Serrano. Let me ask a question having to do with Mrs. 
Emerson's favorite Federal agency, GSA.
    Mrs. Emerson. No doubt.

                     GSA RENT AND GREEN TECHNOLOGY

    Mr. Serrano. The judiciary is working with GSA on a 
memorandum of agreement on rent calculation to limit rental 
costs. In your testimony, Judge Gibbons, you indicate that the 
2011 rent is expected to be $300 million less, 23 percent of 
the amount projected, in 2005. Is the 2010 projected payment 
for rent on target? Your cost projection for 2011 is $1 
billion, what savings are you taking into account with that 
projection and does the Administrative Office of the U.S. 
Courts work with GSA in efforts to explore and implement policy 
and practices to make the court facilities more energy 
efficient and more green?
    Judge Gibbons. Well, that sort of touches a number of areas 
and let me try to address the rent savings first, and then I 
will probably turn to Jim to talk about our relationship with 
GSA, the memorandum of understanding and the green technology 
issue.
    Really our progress in containing our rent cost is 
attributable to a number of steps we took as a part of our cost 
containment effort. We do believe that we are on target in 
saying what we have saved in terms of rent costs that were 
projected in 2005. First, you know we had that moratorium on 
courthouse construction, but then we followed up with a number 
of steps. We had our rent validation effort in which we worked 
with GSA to identify areas where we were not being charged 
properly. We believe that we saved and had cost avoidances of 
about $50 million as a result of that effort. We have had 
changes in the Design Guide, we instituted a rent cap of 4.9 
percent to contain the rate of growth in rent. We have 
instituted a new circuit-based program of managing the funds 
available for space improvement where the cap is a major player 
in restraining the cost. We have the new Asset Management 
Planning process, which we have referred to previously, and 
then the Memorandum of Understanding.
    All of those things have contributed to this savings we 
have seen in rent. For the future obviously the courtroom 
sharing as new construction comes online will help us avoid 
costs that we otherwise might have incurred.
    Mr. Duff. Yes, Mr. Chairman, I would just add the two 
things we started when I was appointed. One was trying to 
improve relations with GSA and two, get the rent under control, 
and I think we made great progress in that regard with this 
Memorandum of Understanding. We have taken the play out of rent 
projections as much as we could. They used to use a market-
based rent calculation, and we were finding that it was 
inconsistent and it was above market rate in many instances. So 
this new memorandum of understanding we entered into took the 
play out of it and provided some definition to our rent so we 
can project it more accurately going forward, we think.
    And with regard to the green issue, GSA is really 
responsible for that, but we certainly encourage it and work 
with them in any way we can to promote that.
    I met with the new Administrator of GSA about 2 weeks ago, 
Martha Johnson, and was very impressed with her, and I think we 
are going to have a good working relationship with them going 
forward. She was certainly very mindful of our needs and called 
us her biggest customer, which we like to hear, and wanted to 
work with us. So I was encouraged by the meeting.
    Mr. Serrano. You realize that if you get rents reduced it 
would be revolutionary. It is just improper use of the language 
in this country to think that rents can be reduced. Why do I 
know Mrs. Emerson has something to say?
    Mrs. Emerson. Because I was able to negotiate my rent at 
GSA at my new office building and told them that I would only 
pay what I paid my old Federal building. They wanted to charge 
me double, I said then we are not going to move in, and so they 
caved in. What can I tell you? So it was a negotiation, right?
    Mr. Serrano. It is her way of reminding me that I don't 
have a Federal office building in my district.
    Mrs. Emerson. Mr. Chairman, it was not. I didn't know that 
you didn't.
    Mr. Serrano. No, I don't.
    Mrs. Emerson. Well, we will have to get you one.
    Mr. Serrano. There you go. Please write it up.
    Mrs. Emerson. Instead of a portrait you can get a building.
    Mr. Serrano. Thanks a lot.
    With that, let me turn to our colleague the distinguished 
gentlewoman from the great State of California, Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman. I apologize for being 
late, but as you can imagine, it is a pretty busy time.
    Mr. Serrano. If you need me, let me know.

                          WORKFORCE DIVERSITY

    Ms. Lee. Welcome, I am glad to see you both. I appreciate 
the efforts of the Judicial Conference in its commitment to 
reduce costs and especially during these very difficult times, 
but I want to make sure that we find the right balance between 
of course cost savings and that we continue to ensure everyone 
access to the courts and timely decisions in the court system 
for all Americans.
    Let me ask you, because I asked you last time and I 
appreciate you submitting the information as it relates to 
diversity. And I am looking at the numbers here, you know, some 
areas in terms of the workforce you are progressing, in other 
categories you are not. I think you have a lot of room for 
improvement, and I am wondering if you do recruitment at 
minority serving institutions, Hispanic serving institutions, 
African American, tribal colleges to boost diversity numbers on 
this.
    Judge Gibbons. Our Judicial Conference Committee on 
Judicial Resources has an Ad Hoc Subcommittee on Diversity that 
grew out of a recognition that we perhaps needed to do a better 
job in the area of recruitment, and through the efforts of this 
subcommittee and through that committee we are identifying 
minority law students--this is particularly for law clerk 
positions and staff attorney positions obviously, but that has 
been an area in which we feel we have been particularly lacking 
in racial and ethnic diversity. But we have been identifying 
minority law students and other minority organizations and bar 
associations in hopes of creating pipelines there.
    We are in the process or have been, I am uncertain as to 
the status of sending correspondence to law school deans, we 
are preparing correspondence to hiring partners at the Nation's 
top law firms. All that goes largely toward addressing the law 
clerk/staff attorney piece of this. Of course, that is only a 
small part of the courts' overall workforce.
    I will leave it to Jim to address anything that has been 
done on a national level, but I do know that local courts 
typically elect how and where to advertise their vacancies, and 
I know that many of them have become increasingly aware of the 
need to make sure that they are advertising in places where 
their advertisements will be seen by folks of diverse racial 
and ethnic backgrounds.
    Mr. Duff. Yes, I would just add to that the local court 
hiring practices, we have encouraged reaching out and 
diversifying the best we can. The hiring at the courts is done 
locally for staffing purposes, not nationally. But from a 
national standpoint we certainly encourage that.
    Ms. Lee. It is one thing to encourage and post, but it is 
another to do really do the outreach. I don't know if you have 
the resources to really establish a good outreach recruitment 
effort, and that is something, if it makes sense, you should 
let us know.
    Mr. Duff. Yes.
    Ms. Lee. Do you think that makes sense?
    Mr. Duff. Yes, we are committed to that.
    Ms. Lee. But do you have the resources?
    Mr. Duff. I think we probably have the resources now to--I 
will look at it more closely, but as we have said from the 
outset, we have been very pleased with the funding that we have 
been receiving. If we need more in that regard, we would 
certainly seek it.
    [Clerk's note: Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    The Judiciary believes it has received sufficient funding from 
Congress in order to continue implementation of its workforce diversity 
initiative. The Judicial Conference Committee on Judicial Resources' Ad 
Hoc Subcommittee on Diversity was established in 2004 to examine 
diversity within the federal judicial workforce and to consider 
programs, policies, and training on fair employment practices that 
would benefit the federal Judiciary. The goal of this initiative is (1) 
to expand the Judiciary's job applicant pool in terms of diversity, and 
(2) to allow individuals to better understand the role and mission of 
the federal courts.
    As part of the Judiciary's workforce diversity initiative, 
Committee members attended and made diversity presentations at all 
circuit judicial conferences during fiscal years 2007 through 2009, 
with the emphasis that new judges be made aware of the issue and the 
important role that they can play when making hiring and promotion 
decisions. The Committee also sends letters to judges encouraging their 
colleagues to make an extra effort to identify and interview minority 
individuals for a non-Article III judicial vacancy in their respective 
districts.
    A Diversity Initiative Blueprint was formulated and is revised 
continuously with input from the Committee and a variety of Judiciary 
advisory groups. Key components of the Blueprint include:
    <bullet> Ongoing Outreach to Judges. Completion of a judge-to-judge 
presentation, emphasizing the critical role that judges play in hiring 
and promotion decisions. The presentation (contained on a DVD) is 
included with orientation materials for new judges.
    <bullet> Outreach to Potential Judicial Employees. Upgrading the 
Judiciary website (www.uscourts.gov/careers) to allow the Judiciary to 
compete better with other federal agencies for talent. The website now 
includes a series of Judiciary recruitment videos designed to attract 
America's best talent to the federal courts with a focus on promoting 
diversity in the Judiciary's workforce.
    <bullet> Diversity Toolkit. Recently, the Judiciary distributed a 
recruitment toolkit to the courts intended to provide information and 
practical tools to assist courts in reaching out to ``hard-to-find'' 
candidates, improving interview techniques, and implementing formal and 
informal mentoring programs to increase the retention of diverse 
employees.
    <bullet> Continued Judiciary representation at college/law school 
employment fairs.
    <bullet> Coordinating with external organizations for outreach and 
recruiting (Minority Bar Association, minority publications, minority 
corporate counsels, DC Women's Bar Association.)

    Judge Gibbons. It may be that more could be done at the 
national level to encourage the outreach with respect to 
individual court hiring for the law clerk positions. It is kind 
of a national hiring market, not so for other positions in the 
courts. I think we might take a more national approach to 
encouraging local courts to become more actively involved in 
outreach; in other words, to go beyond just the advertising and 
the making available.
    Even though under our court governance system the hiring is 
really within the hands of local courts, certainly there is 
always more that you can do to create a climate in which folks 
are thinking about doing these things that they ought to do and 
that would be positive in terms of enhancing diversity.
    Ms. Lee. Great. And I think when you think through this and 
you look at the local courts, we have the tri-caucus, the 
Black, Hispanic, Asian Pacific American Caucus that could help 
in your local courts in recruitment efforts.
    Judge Gibbons. I will say that on another note, while we 
have not done so well in racial, in ethnic diversity, we have 
done very well in gender diversity even in the lawyer ranks 
where a majority of all the Federal law clerks in the system 
are now female and have been for a number of years.
    Ms. Lee. Yes. May I have one more minute, Mr. Chairman.
    Mr. Serrano. Sure.
    Ms. Lee. And the dismal record for the judges, I am looking 
at this in terms of African American, Asian and Hispanic 
judges, on page 128 of the report here. I don't know how you 
deal with that.
    Mr. Duff. That is a little bit out of our control.
    Ms. Lee. I know, but just for the record it is horrible.

                          MINORITY CONTRACTING

    Finally, on the minority contracting piece in the report we 
asked you that question in our last hearing and you came up 
with a certain percentage. You say of this total 500 of the 
total of 4,800 contract awards, 591, 12.11 percent, were 
awarded to minority and women-owned businesses.
    Judge Gibbons. I think the most striking thing about those 
figures is what it doesn't include. We were only able to 
furnish figures for a few entities like the Administrative 
Office, but not for all of the courts throughout the country. I 
think we were able to provide some figures perhaps maybe for 
the Federal Circuit, but not for other courts. So those 
figures, they really don't tell you much at all. And I believe 
that I was told in preparation for this hearing when I asked 
about that that we had made an effort to get those figures and 
had found that those statistics were just not maintained. We do 
nationally maintain pretty complete statistics on hiring, and 
not just who is hired but who is in the applicant pool. But we 
apparently do not maintain those statistics with respect to 
contractors.
    Ms. Lee. Can we ask you to begin to develop a central 
repository or some kind of a data gathering mechanism or 
procedure? Because until we know what is what, it is really 
very difficult to know what is what.
    Judge Gibbons. I think we can tell you we will begin to 
look at it. Our courts operate on a system of decentralized 
budgeting.
    Ms. Lee. I know.
    Judge Gibbons. And so----
    Ms. Lee. We have got to do something. So beginning to look 
at it is fine, but we have got to know as we begin to look at 
it, we have to have an outcome or a goal and we can help you 
maybe come up with some mechanisms to develop that, but I think 
it is absolutely essential that we know what is going on with 
these contracts.
    Judge Gibbons. Perhaps we can take--I mean it would seem to 
me that the key thing is collecting the information, and 
apparently why we don't have the information is because when 
our courts make a contracting decision they don't collect 
information. And certainly we could begin to look at how we 
could collect the information.
    Ms. Lee. Yes, I think so because given that America is a 
diverse country, I think our courts want to see some fairness 
in every aspect of the court system and this is one big aspect 
of it that there should be some equity and some fairness, and 
how do you know that until you know it.
    Mr. Duff. Representative Lee, if I might supplement the 
answer a bit. Part of the request we made today is for 
increased funding in our accounting system and that new 
accounting system I think will enable us better to monitor and 
respond to and be responsive to these sorts of concerns.
    Ms. Lee. As long as you have some categories in there that 
will give us the information in this new accounting system 
which some--most accounting systems don't have. You have to 
have a special database, a special repository, a special 
skills, you know? So look at it within a broader context if you 
want to attach it to that.
    Mr. Chairman, can we make sure we do whatever we need to 
do?
    Mr. Serrano. I want the record to show that the chairman 
joins Ms. Lee in that request. She is always on target with 
this. You know, no reflection on your comments, both of you, 
but it reminds me when I started in public office 37 years ago. 
I would ask people what does your department look like in New 
York State. The answer was we don't keep records because we 
treat everybody equally. Well, no, we want you to keep records. 
The Census Bureau this week is asking very pointed questions 
about who you are and I think you need to know within the court 
system who is there. So I sign up with that.
    [Clerk's note: Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    As Judge Gibbons stated in here response to Rep. Lee's question 
regarding contract awards to minority-owned and women-owned businesses, 
procurement in the federal Judiciary is decentralized throughout the 
courts nationwide so there is no central repository containing 
information relating to federal Judiciary contracting actions. A 
procurement module that will capture Judiciary-wide procurement data, 
including data on contract awards to minority-owned and women-owned 
businesses, is expected to be implemented in the courts in 2013. Data 
from this module would be available from the system beginning in 2014.
    At the present time, the Administrative Office of the United States 
Courts is able to provide information from its financial accounting 
system relating to FY 2009 contract awards to minority-owned and women-
owned businesses for the following judicial organizations which all 
share a single procurement database: Administrative Office of the 
United States Courts, Federal Judicial Center, United States Court of 
Federal Claims, United States Court of International Trade, United 
States Court of Appeals for the Federal Circuit, United States Judicial 
Panel on Multidistrict Litigation.
    There was a total of 3,429 contract awards in FY 2009 for the six 
Judiciary organizations listed above. Of this total, 435 contract 
awards (12.69%) were to minority-owned and women-owned businesses.

    Let me do something here, Ms. Lee. We are trying to wrap 
up. So if you have another question to ask.
    Ms. Lee. One more question.
    Mr. Serrano. Go ahead.

            SHARING FEDERAL PROBATION PRACTICES WITH STATES

    Ms. Lee. Evidence-based practices, just in terms of 
recidivism at the Federal level, how can we ensure that this 
information can be shared at the State level with law 
enforcement officials in the court system, what you are doing, 
because evidently the recidivism rate has been significantly 
reduced for Federal levels?
    Judge Gibbons. Well, our recidivism rate was lower to begin 
with, substantially lower. We hoped to make it even lower. I am 
not aware of any studies that explain why that is. It may be 
partly because of the nature of the offenders that we have had, 
but certainly we are no longer a Federal system where our 
offenders are not dangerous, because there are in fact many of 
them very, very dangerous to society and have done very 
substantial time in prison. But I would attribute it to the 
fact that we have always just had a really professional, 
excellent probation system. Evidence-based practices provide a 
chance for us to be even better, but I was in the district 
court for 19 years before I went to the court of appeals and 
one of the great privileges in my life was working with the men 
and women in our probation system, and I think they just get 
good results because of the caliber of people they are and the 
work they do. I don't know what else to attribute it to. And I 
will bet that has been a position to which probation officers 
aspire because historically the Federal system has paid better 
than the State systems.
    And I am not telling you it is a high paying job. I am just 
saying that it has been treated as more of a professional job. 
They virtually all have at least Master's Degrees in relevant 
areas and they approach the job with as much professionalism 
and seriousness as any group of people that I know.
    Ms. Lee. If there is no empirical evidence to tell us why, 
maybe the anecdotal evidence will help, having an evaluation, 
send something out to the States saying we think this may be 
why this is working. You may want to consider it, something, 
really because it is really horrible in all the States. So I 
would like to talk with you further on how we would do that.
    Mr. Chairman, thank you.
    Mr. Serrano. It is okay if you have another question. I 
need you to cosponsor my new bill.
    Ms. Lee. I am.
    Mr. Serrano. You don't even know what it is.
    Ms. Lee. But I am going to cosponsor it. I thank you, I 
want to make sure we follow up on this anecdotal evidence and 
replicate best practices.
    Thank you again.
    [Clerk's note: Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    We do not know for certain why the federal recidivism rate 
is lower than that of state and local systems, but we are 
building a comprehensive outcome measurement system to support 
empirical research that will be able to answer that question 
definitively. The infrastructure for that system will be 
complete in two years, but part of it is already done. That 
part now enables us to gather arrest data from the FBI and all 
state systems, which provides a baseline recidivism rate for 
all federal districts and will allow us to measure changes in 
the future. Our goal is to be able to conduct empirical 
research to determine what interventions help to foster lasting 
positive changes in individuals under the supervision of 
probation officers, and thereby reduce recidivism.
    In the meantime, we can offer possible explanations for the 
difference in recidivism rates between federal and state and 
local systems. A good portion of federal cases, around 40 
percent, are considered low risk as measured by the Risk 
Prediction Index and reflected in the Criminal History Score 
computed for sentencing guidelines purposes. It is possible 
that state and local systems do not have such a high percentage 
of low risk cases.
    In addition, federal probation officers have more 
experience and education than their state and local 
counterparts. Typically, the federal system recruits from state 
and local systems and selects only the best available 
candidates who already have several years of experience in 
community corrections. Candidates are attracted to the federal 
system partly because of better pay and benefits in most 
jurisdictions, but also because of the excellent reputation of 
the federal system. On average, federal probation officers have 
12 years experience in community corrections. All have 
bachelor's degrees, and half also possess master's degrees. 
About 12 percent are fluent in a second language, usually 
Spanish.
    One reason for the excellent reputation of the federal 
probation system is the exceptional training that federal 
probation officers receive. All new officers participate in a 
six-week basic training program on the campus of the Federal 
Law Enforcement Training Center. Also, probation officers are 
required to participate in a minimum of 40 hours of training 
each year, on top of any training they receive in the use of 
firearms and officer safety. Federal probation officers 
participate throughout their careers in advanced programs 
offered by the Federal Judicial Center, the United States 
Sentencing Commission, and the Administrative Office of the 
U.S. Courts.
    Federal probation and pretrial services officers and their 
state and local counterparts are increasingly exchanging 
information about evidence-based practices at conferences such 
as those of the American Probation and Parole Association and 
the National Association of Pretrial Services Agencies. Also, 
the Administrative Office of the U.S. Courts has long published 
Federal Probation, a journal with three issues per year that is 
available to the public and contains articles written not only 
by academics, but by practitioners at the federal, state, and 
local level.

                      RETENTION OF FEDERAL JUDGES

    Mr. Serrano. Mrs. Emerson has no further questions. I just 
want to add to the question she was talking about. Diversity in 
courts, in general there is an issue of retention of Federal 
judges. I don't know if you have touched on that in your 
testimony, but the whole issue in that case was compensation. 
Has that changed at all or is that still a problem?
    Mr. Duff. We are still having a problem, Mr. Chairman. The 
number of judges leaving the bench is increasing and we are 
seeing troubling trends. It seems to be affecting the gains we 
have made in putting a diverse bench together. It has been 
slow, it is out of our control a bit, but it has had a 
disproportionate impact on minorities leaving the bench because 
of the economic impact.
    So we have not received pay restoration that we have been 
seeking and it continues to be an issue, but we are mindful of 
the difficulty of doing that in this economic climate.
    Mr. Serrano. I understand the judges look around and see 
people with the same law degrees doing 10 times better than 
they have, not to make light of it, but tell them that you know 
a chairman of a committee that represents the area of Yankee 
Stadium and there are 27 guys there and the minimum salary is 
$660,000 a year for a rookie and the other is making $27 
million a year, so I understand. I understand.

                   CHAIRMAN SERRANO'S CLOSING REMARKS

    I want to thank you both for your testimony. I have more 
questions for the record and, Ms. Lee, if you have more 
questions it will be submitted for the record and same to you, 
Mrs. Emerson.
    We want to thank you for your testimony and want you to 
know this committee all stands ready to assist you and when we 
do ask you hard questions and present to you that which we 
think is fair as diversity in the courts, we do it because it 
is the right thing to do and we hope you pay attention to that 
and work on trying to resolve those issues. We thank you for 
your testimony.
    Judge Gibbons. We thank you very much for the opportunity 
to be here.
    Mr. Duff. Thank you, Mr. Chairman. If I might add, I wish 
you all the best with your new bill on naturalization. I will 
say that I have encouraged our judges to include Members of 
Congress in the naturalization ceremony, so if your bill passes 
we will have less opportunity to interact.
    Mr. Serrano. My bill will allow you to give the oath to new 
citizens.
    Ms. Lee. Is that the bill you want me to cosponsor?
    Mr. Serrano. Yes.
    Ms. Lee. You got it. Thank you for clarifying.
    Mr. Serrano. The hearing is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, April 15, 2010.

           FY 2011 BUDGET REQUEST FOR THE U.S. SUPREME COURT

                               WITNESSES 

JUSTICE CLARENCE THOMAS, ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE 
    UNITED STATES
JUSTICE STEPHEN BREYER, ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE 
    UNITED STATES 
    Mr. Serrano. The subcommittee will come to order. Just two 
personal notes at the beginning. Number 42 is in honor of April 
15th, 1947, for those of you who are a little young in the 
crowd. That is the day that a man named Jack Roosevelt Robinson 
stepped on a baseball field for the first time and, in my 
opinion, in the process integrated not only baseball, but 
integrated America. And we honor him today throughout Major 
League Baseball, and I thought it would be fitting to honor 
number 42.
    By the way, a good story in the New York Times about 
Mariano Rivera of the Yankees as the last player to wear number 
42, and your favorite committee chairman is quoted in the 
story.
    Mrs. Emerson. And what is, if I may ask, the Yankee's 
record so far, Mr. Chairman?
    Mr. Serrano. You are out of order.
    Also I would like to note before we begin this hearing that 
there has been a change at the Court which has special meaning 
to the Court, to the American society in general and to me 
personally, because Sonia Sotomayor comes from the South Bronx 
from the area that I represent, the area that I grew up in, and 
her parents were born on the same island of Puerto Rico that I 
was born on. So of course it was a special time to see her 
become part of the very prestigious and very honorable Court.
    This morning we gather to hear about the fiscal year 2011 
budget request for the Supreme Court. We have the distinct 
honor of being joined by two distinguished Justices of the 
Supreme Court regarding its appropriations request for the 
upcoming fiscal year, and we do so at a time when the Court's 
longest-serving member, Justice John Paul Stevens, has recently 
announced that he will retire when the Court finishes the work 
for the summer. I know that I speak for every member of this 
committee when I ask the Justices here today to pass along this 
subcommittee's appreciation and thanks to Justice Stevens for 
his decades of service to our country.
    These annual hearings are a rare and important opportunity 
for our two branches of government to interact. Congress, of 
course, has constitutional responsibility over Federal 
spending, which includes appropriations for the Supreme Court 
and the rest of the judiciary. Although I always have some 
concern about asking the third branch to come and testify 
before us, these hearings provide a valuable chance not just to 
help us understand the Supreme Court's budgetary needs, but for 
the Nation's highest court to discuss issues affecting the 
judiciary as a whole. Hopefully our two branches get to know 
one another a little better as well.
    Meeting the needs of the judicial branch is a priority for 
the subcommittee. The courts have a vital role to play in our 
society where the rule of law is a core principle. We need to 
be sure that the courts have the resources they need to 
dispense justice with reasonable speed and care, as well as 
proper regard for the rights of defendants and litigants and 
the needs of society.
    At the same time we must also exercise due diligence in 
spending matters and balance competing needs. In some years the 
percentage increases requested by the courts have been 
substantial, as have those of many agencies. As we put together 
our plans for fiscal 2011, we face a more austere environment 
for nonemergency spending. We look forward today to a 
discussion of the budget needs of the Supreme Court as well as 
a broader conversation about the Federal judiciary as a whole.
    Our witnesses are Justice Clarence Thomas and Justice 
Stephen Breyer, both of whom have appeared before the 
subcommittee previously. In fact, I think Justice Thomas may be 
on his way to setting a record for appearances before the 
committee. We will have to put up your number. Justice Thomas 
was nominated to the Court in 1991 by the first President Bush 
after serving as Assistant Secretary of Education for Civil 
Rights, Chairman of the Equal Employment Opportunity 
Commission, and as a judge on the Court of Appeals for the 
District of Columbia, among other positions, and we welcome you 
again to the committee. I say that with great admiration when I 
say that you have been here so many times before us to share 
your testimony with us.
    Justice Breyer joined the Court in 1994 as a nominee of 
President Clinton. Before that he was a professor at Harvard 
Law School, staff member for the Senate Judiciary Committee, 
and judge and then chief judge on the Court of Appeals for the 
First Circuit.
    We welcome both of you today, and we are glad that your 
previous appearances before the subcommittee were pleasant 
enough that you agreed to return for repeat performances. Thank 
you for joining us today.
    Mr. Serrano. And now I would like to turn to my colleague 
and my sister Mrs. Emerson, our ranking member.
    Mrs. Emerson. Thank you.
    Welcome, Justices Thomas and Breyer. I really appreciate so 
much that you come before us today.
    An independent judiciary, trusted and respected by all 
citizens and committed to fairly and expeditiously resolving 
difficult and controversial questions, is a fundamental 
institution for our Nation. Although the Supreme Court budget 
is not large in comparison to other Federal programs, I am 
pleased you are here today and recognize the importance of your 
testimony and appearance before the subcommittee. Outside of 
the confirmation process, which we have no opportunity to 
participate in, which should be quite interesting this year, 
today's hearing is one of the few instances when the Supreme 
Court and the legislative branch interact, and it is, in my 
opinion, a worthy interaction as we recognize and appreciate 
and respect the prerogatives of each branch. I look forward to 
hearing from you both about the resources necessary for the 
operation of our Nation's highest court as well as any thoughts 
you all might have regarding our judiciary system as a whole.
    As the witnesses are aware, the Federal deficit is 
projected to be $1.6 trillion this year, and the Congress is 
going to have some difficult spending decisions to make not 
only this year, but for many years to come. Please know that I 
will work with Chairman Serrano to make sure you all have the 
necessary resources to fulfill your constitutional duties. 
Thank you all.
    Thanks, Mr. Chairman.
    Mr. Serrano. Thank you.
    By the way, that question about the Yankee record, is that 
because the Cardinals are having a better start?
    Mrs. Emerson. The Cardinals are doing phenomenally well, 
knock on wood.
    Mr. Serrano. There is always September.
    Mrs. Emerson. Well, that is what happened last year, but 
for now I am enjoying it, you know.
    Mr. Serrano. Justice Thomas and Justice Breyer, the floor 
is yours. As you know, the routine is that your written 
testimony will be printed in the hearing record. Please proceed 
with whatever oral statements you care to make, and then we 
will have some questions.
    Justice Thomas. Good morning, Chairman Serrano, Mrs. 
Emerson, Members of the committee. Justice Breyer and I are 
pleased to return, and we will pass along your kind wishes to 
our colleague Justice Stevens. We will certainly miss him. He 
is a wonderful man.
    We have with us today a number of members of the Supreme 
Court staff. We have the Clerk of the Court, Mr. Bill Suter. We 
have Marshal Pamela Talkin, and the counselor to the Chief 
Justice, Jeffrey Minear. And we have our Public Information 
Officer Kathy Arberg, and our Acting Budget Manager Venita 
Acker.
    As I said, we are pleased to be here, and we have submitted 
a statement for the record, as is our custom.
    And you are right, Mr. Chairman, I may well be the longest-
serving member of this committee. I think it is 15 years now. 
And maybe I will get off for good time or good behavior.
    But the Court's budgetary needs, as you have indicated or 
alluded to, are tiny. We understand this is a period of 
austerity, and we have, as in previous years, been very serious 
about our responsibility to review our budget needs. And I 
emphasize the word ``needs.'' We do not look at this as wants 
or a wish list.
    In the years I have been before the committee, we have only 
asked for what the Court has needed. In some years, in my 
opinion, we haven't even asked for that. The largest request, 
as you remember, was actually--it had to do with the 
modernization project, which is simply a matter of keeping the 
building from falling down around us.
    The budget request as in previous years is in two parts. We 
have the salary and expenses, which Justice Breyer and I will 
address, and we have the building and grounds, which the Acting 
Architect of the Capitol Stephen Ayers will address. But on 
that latter category, let me make a couple of comments, and I 
will be brief.
    The modernization commenced in 2003, fiscal year 2003. And 
there is some confusion about the year simply because the first 
portion of the modernization actually had do with the 
construction of an annex, which is an underground facility, and 
that was necessary to handle the portions of the building that 
were going to be occupied with construction initially or 
changed. With respect to the completion date, we had some 
initial slippage in the early part of the modernization 
project. Since then it has been timely. It is scheduled to be 
completed this summer, and with the close-out activities 
finishing early next calendar year.
    With respect to our salaries and expenses request, that 
portion of our total budget this year request is $77,758,000 
for fiscal year 2011. That is an increase of $3,724,000, a 5 
percent increase. Now, 70 percent of that increase is 
nondiscretionary, it is mandatory. It is basically what is 
required to continue operating at our current level. It is an 
adjustment to our base. It is increases in salary. It is 
mandatory increases in benefits. There is an additional 
$173,000 that is simply in there for inflation to cover 
inflationary increase.
    Last year we asked for an increase of $799,000 in addition 
to those base adjustments, and we did that to hire personnel 
and to get the appropriate equipment to bring our Web site in 
house. That has been an early success. In the first 2 weeks 
that that system, that the Web site, has been up, we have had 
25 million hits from around the world. As you remember from 
discussions in the early years, we were ecstatic about 1 
million hits in a month. It has been well received and 
universally praised. This allows us now to make adjustments, 
the things that we talked about early on. If you visit it, you 
will see it is a much better site. Things that used to take 
several hours to get on site, changes that could only be made 
within a matter of hours or not made at all are now made in a 
matter of minutes, 3 to 5 minutes to put something there.
    As I indicated last year, though, there is one area where 
we would probably come back this year to ask for some increase. 
And we do this again with some reluctance, but recognizing in 
all candor that this is a need. It involves the security area. 
I think in parting last year, I was asked whether there was one 
area in which I thought we would have additional needs beyond 
the technical area, and I said it would be security.
    What we did is we had our security personnel do a complete 
review of our needs, and their suggestion or their request, 
which was pretty well documented, was that we needed 24 
additional police officers. And the reason that you need the 
additional police officers is with the opening of the building 
after the construction, we will have more pedestrian traffic. 
In addition to that, we will have an entrance to the building, 
an underground entrance, that was closed and did not need to be 
policed in the way that the other entrance was policed. That 
will require additional police officers. We also have 
additional needs at our command center.
    Now, rather than coming here with a request as required or 
the personnel or security people asked for, we are going to ask 
for half of that. We are going to ask for 12 rather than the 24 
and make do with that. But as I indicated, that is a request 
that our security personnel feel pretty strongly about. That 
again will result in an $886,000 increase in our nonadjustment 
to the base request.
    With that, Mr. Chairman, I will just simply respond to your 
questions at the appropriate time.
    Mr. Serrano. Thank you.
    Justice Breyer. That is fine.
    Mr. Serrano. Thank you so much.
    Justice Thomas. That is the first time he has ever agreed 
with me. Well, it is not the first time.
    Justice Breyer. No, I agree with him all the time.
    Mr. Serrano. I hope somebody is taking notes of this.
    Mrs. Emerson. C-SPAN is.
    Mr. Serrano. My first question would be one that you 
touched on, but I just wanted to clarify. So you believe that 
the modernization project will be completed on time this 
summer?
    Justice Thomas. Well, on time as is currently projected, 
not from the initial completion date--we are a year behind.
    Mr. Serrano. Well, yes, on time based on last year's 
testimony where you said it would be this summer.
    Justice Thomas. That is right. It is expected to be done 
this summer with the close-out activities drifting into the 
early part of next year.
    Mr. Serrano. What would those close-out activities be?
    Justice Thomas. I think it is basically we have got some 
grounds, perimeter work to do. We also have some cleanup to do, 
removal of construction trailers, et cetera, those sorts of 
things.
    Mr. Serrano. Overall how would you characterize the Court's 
experience with the modernization process in terms of adequate 
budget, resources, and disruption, if any, to the Court's 
operation?
    Justice Thomas. From my perspective, I think it has been 
spectacular. In any big projects we have a choice. We could 
move out of the building as they, in essence, rebuilt it. You 
are talking about plumbing, and wiring, structural work, 
heating and air, and some security issues. Now, if you look 
around town, many people evacuate the buildings in order to 
accomplish this. We chose to stay, and they have had to work 
around us. Now, there have been glitches, things weren't 
perfect, but I would characterize the resources, the handling 
of this, from my perspective, as excellent, recognizing that 
there are imperfections.
    Mr. Serrano. Well, as difficult as it must have been to 
have this work going on while were you there, I always felt it 
was very important and symbolic that you would stay. If I was a 
bad stand-up comic, I would say if you move, where would the 
protesters know where to go?
    Justice Thomas. They would figure it out.
    Mr. Serrano. But there was definitely a need for 
continuity, and I am glad you chose to do it that way.
    Question. You said you could really use 24 officers, but 
you are only going to ask for 12. You are not going to get too 
many committees asking why you are asking for the lesser 
number; they actually applaud that. So do you feel that the 24 
was maybe too much of an ask, or are you being nice to us 
because of the budget problems, or do you actually think you 
can do it with 12?
    Justice Thomas. We have not asked for a budget or any 
increase in security personnel since 2006, and we have managed 
to do with what we had, or what we have. We try to do that 
before we come to this committee. Now, we would like--we think 
the appropriate number is 24. It is a comfortable number. It is 
a number that gives us some leeway. But we can with a minimum 
or baseline number of 12 make it work. So it would be not a 
luxury, but a better, more practical, a more flexible number to 
have the 24. And I think most agencies would come in and ask 
for the 24.
    Mr. Serrano. Right.
    Justice Thomas. But as I have said, we have never in the 
time that I have been coming here ever asked you for more than 
we have needed. We have been very stringent, particularly 
during Chief Justice Rehnquist's tenure. He was very strict 
about what we asked for.
    Mr. Serrano. One last question on that. These 12 new 
officers, I am just curious, do you select them from an 
existing law enforcement force, are they trained only for the 
Supreme Court, are they totally new hires, or do they get 
transferred from Capitol Police or somewhere else?
    Justice Thomas. I think in the past we used to take quite a 
few people from, say, the District police force, Metropolitan 
Police, and various agencies around town. We normally now hire 
new people, and we send them off to the Federal law enforcement 
facility and training facility down in Brunswick, Georgia, 
which probably is excellent merely because it is in Georgia. 
And so it is normally an entry-level job. We have had good luck 
with keeping them. We have had very little turnover. In the 
early years we had quite a bit of turnover, and that got to be 
a problem. But after we reached parity in benefits and salary 
and retirement, that has pretty much ended.
    Mr. Serrano. Let me ask you one last question before I turn 
it over to Mrs. Emerson. The Court has requested $6.3 million 
for 2011 to finish roof repairs to the Court building. Is this 
request part of the Court's modernization project, or is this 
something new?
    Justice Thomas. That is separate. That is in the buildings 
and grounds category. The Architect of the Capitol will handle 
that, but that roof, that is a part of the maintenance. The 
roof is an old roof, it is the original roof. And this has been 
an ongoing project, and this 6.3 million is to finalize the 
repairs on the roof. It is the final phase of that, but it is 
not a part of the modernization project.
    Mr. Serrano. I think you spoke about this in the past, 
forgive me if I am wrong, but I think you said part of what we 
wanted to accomplish was not only to make the building more 
workable for everyone, but also to make it easier for folks to 
visit. Do you think we have accomplished that?
    Justice Thomas. I think we have. I think we can always 
debate around the margins, as to whether or not this approach 
or that is a better approach. I think we all have different 
opinions about that, but I can remember my own first venture up 
steps in the Supreme Court. I was overawed by it, and it is a 
national treasure, but it is also a building where we work. And 
I think we have managed to maintain that balance both in the 
modernization project and the additions. There are going to be 
new things, such as a new film. I think there is more artwork 
there. I think the building is maintained in an excellent 
fashion. So the answer to that, I would say, is yes.
    Also on the Web site, I think, is an opportunity to see 
more of the building and more of what we do. Just the ability 
to show what is there without actually having the physical 
intrusiveness or disturbances that you would have is 
outstanding. So I think there are a number of opportunities to 
do that. I think the building--and you have been there--it is a 
fabulous place to work and to visit. So I think that we have 
accomplished that. Justice Breyer may have a different view of 
that.
    Mr. Serrano. Do you have a different view of that?
    Justice Breyer. I will wait to see what happens. We had at 
one point, I think, about a million people a year coming 
through. I think that is good. I think the number has dropped a 
lot because of the construction probably, and I hope to get 
back to a million or more. I think it is important that people 
go through that building. It is their building, and they ought 
to know about it.
    Mr. Serrano. Thank you.
    Mrs. Emerson.
    Mrs. Emerson. Let me ask a combination modernization/
security question just back related to the 12 officers. Given 
the recent events, the plane crash into the IRS building in 
Texas, the shootings at the Las Vegas courthouse and at the 
Pentagon, that shows that we perhaps, perhaps not, need 
heightened security at some of our Federal buildings. Obviously 
you all are a high-profile building. You are being very kind by 
asking for 12 officers, but have you all had any additional 
security threats over the last year or so that might give us 
reason to think 12 new officers won't be enough?
    Justice Thomas. Without getting into too many details in an 
open hearing, one of the reasons for the request is actually we 
have individuals who work on--one person actually now--who 
actually do the work on threat assessment. And we are going to 
upgrade that because of the volume, without getting into the 
details of it. We understand the importance of analyzing those 
threats and remaining current and following up on that.
    Mrs. Emerson. So within the new modernization project, you 
will have a new police command center in the building, correct?
    Justice Thomas. That is already----
    Mrs. Emerson. You have that already?
    Justice Thomas. Yes.
    Mrs. Emerson. And what about the additional entrances to 
the buildings once the modernization is completed; how many 
additional entrances will there be for purposes of security? In 
other words, if we have 3 new entrances and only have 12 new 
officers----
    Justice Thomas. We will have enough officers to cover the 
entrances, but the point is that, as I said, it would be 
sometimes you can have things that are adequate that you can 
get through the process with, and then sometimes you could have 
a little more. And what we try to do is not to come here before 
this committee, particularly now in this austere period, and 
ask for more than we actually need.
    Mrs. Emerson. And Justice Breyer mentioned having--
hopefully once the modernization project is complete, more 
visitors will come, and so that is important, too.
    In fiscal year 2010, we funded the $3 million building and 
grounds request for perimeter security. Has the Architect of 
the Capitol implemented those security improvements as of 
today, for example?
    Justice Thomas. We are in the final phases. We have one 
side of the building to do.
    Mrs. Emerson. Okay.
    Justice Thomas. And that will be done after the 
construction is done.
    Mrs. Emerson. So you think it will be on schedule and 
within budget?
    Justice Thomas. Based on everything I have heard, yes.
    Mrs. Emerson. That is good.
    Let me switch subjects. According to your-all's budget 
submission, in 2009 there were 88 cases argued and 84 cases 
disposed of by opinion. Back in the 1970s, 1980s, early 1990s, 
there were well over 100 cases argued per year and disposed of 
by opinion of the Court. So one could ask the question then is 
the Court less efficient than in previous decades, or it could 
be other factors.
    So I am just curious. Could you describe how the Court, 
number one, decides what cases it will accept? And do you 
consider this decrease in cases argued compared to earlier 
decades to be significant? I am just interested in your 
thoughts on these trends and whether you expect it to continue 
in future years or not.
    Justice Thomas. First of all, with respect to the future, I 
don't know. When I went on the Court in 1991, we had about 120 
cases a year. I liked that number. Some members of the Court 
may not agree with it, but I think 100 to 120 would be good.
    But the question is what is in our pool of cases. In the 
8,000 petitions we get each year, each member of the Court goes 
through those petitions. I do it usually on the weekend. You go 
through 2 or 300 that come in that are filed or that are 
received during the week, and you make an assessment. What you 
are looking for is whether or not it is a Federal issue that is 
substantial or significant. And then you have other problems, 
whether there are some--we call them vehicle problems; in other 
words, a jurisdictional problem or some other reasons you can't 
take the case. Then we go to conference, and we do that 
individually, and we show up and we cast our votes. Four votes 
in the case is, of course, the cert petition is granted.
    I don't know why the number has gone down. People have had 
different theories. I suspect that there has been a change in 
our--to some degree in our mandatory jurisdiction. It is 
virtually all discretionary now. It may be that the courts of 
appeals are agreeing more, I simply don't know. There haven't 
been until recently, or hasn't been, comprehensive legislation 
that would produce the kinds of cases that would fill our 
docket. I asked that this be looked into before, and I don't 
know anyone yet who has more than a theory. I see nothing, no 
documented reason yet, for the trend. I thought I happened upon 
one, but to this date I haven't had that substantiated.
    Mrs. Emerson. Thank you, Justice Thomas.
    Justice Breyer, you look like you want to say something.
    Justice Breyer. No. I think it is a very good question. I 
will try to keep it to the 2-minute version. The 10th-graders 
are the ones that I really like to talk to about this because 
it helps them understand what we do.
    And I make a couple of points. Justice Thomas likes to have 
evidence. I used to be a professor, and so I don't need any 
evidence; I like theories. I try to point out most laws in the 
United States, almost all of it, is State law. Federal law is 
about 3 percent. That is the law passed by you in Congress and 
the Constitution, and we only handle Federal cases. And Justice 
Thomas very well said which Federal cases.
    The basic rule is that we are there really to work out 
differences among other judges. If all the other judges in the 
United States who handle these questions are in agreement on 
what these words mean, why us? Jackson said that; he said, we 
are not final because we are infallible, we are infallible 
because we are final. Now, no one knows what that means. What 
it means is we don't have the last word because we are so 
brilliant. We are, of course, brilliant, but only, only, only 
in the sense that someone has to have the last word. So if they 
all agree, why us? And if they disagree, though, then we have 
to work it out. So there you have the basic criteria.
    Now, why has that criteria ended up with fewer cases in the 
last few years? Here is where I bring in the theory, and it is 
a very old theory. You can read it in 1584 in Montaigne. He 
says this king or whoever it was was so stupid, he thought by 
writing a lot of laws, he was going to reduce the number of 
lawyers because he was going to explain everything. Doesn't he 
know every word in a bill is a subject for an argument in court 
and a decision?
    So I think what has happened is our diet has become like 
AEDPA, ERISA, and that is because if we go back 10 years, those 
are the laws you passed. And now you, I gather, have passed a 
law with 2,400 pages. If you have passed a law with 2,400 
pages, it probably has a lot of words, and I would predict as a 
test of the theory that 3 or 4 years today, no one is ever 
going to ask us again why we have so few cases.
    Mrs. Emerson. Oh, that was a good answer. Thank you.
    Mr. Serrano. It was a great answer.
    Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman. And as I always have 
to begin my statement when the Chairman brings up the subject, 
I just want to begin by saying, Go, Sox. That limits my time.
    Mr. Serrano. Is that White Sox or Red Sox?
    Mr. Schiff. Red Sox.
    Mr. Serrano. Red Sox? You have 3 minutes.
    Mr. Schiff. You have to stick by your principles, and it is 
worth it.
    I have a couple of questions in looking at the request in 
terms of salaries and expenses. It says this sum reflects an 
increase of 5 percent over the appropriation for 2010. What 
does that represent in terms of percentage increase of salary 
for staff? I didn't know whether the 5 percent meant a 5 
percent salary increase, or 5 percent was including salary and 
benefits, and therefore the salary increase was less than 5 
percent?
    Justice Thomas. No, 5 percent is the overall--the increase 
of the overall budget. And the increase of the salaries are 
merely--it is less than that, it is whatever we have--it was 
the cost-of-living increase plus whatever in-grade natural 
promotions that are required. But beyond that, they are not 
arbitrary increases, and it is not 5 percent. Five percent is 
the overall increase. For example, if we are required to 
increase benefits because of the benefit package, that goes up. 
If you are required to pay into whatever you are required to 
pay additionally into retirement systems, that has increased.
    Mr. Schiff. Justices, if you could get back to us with an 
indication whatever that will mean on average salary increase 
for staff if you don't have that figure available.
    Justice Breyer. He says it is about 1.4 percent.
    Mr. Schiff. Thank you. And I appreciate that frugality. All 
our staff are facing the same kind of difficult economic 
challenges as well as people around the country, and appreciate 
your efforts to keep your budget reflective of economic times.
    I do want to say that I hope, continue to hope, this year 
with the longer term in mind and the broader issue of judicial 
salaries that we can delink judicial salaries from our own, 
which I think has not served us well, and has not served you 
well, but particularly hasn't served judges well. But that is a 
topic for probably another discussion.
    I wanted to raise an issue that I have been studying for 
some time and increasingly feel more and more strongly about, 
and I think it may be a difference of opinion. I think Justice 
Breyer and I have discussed this perhaps in the past, and that 
is the issue of cameras in the courtroom. Is there any plan in 
the works to change, to pilot or in any way increase the use of 
cameras at the Supreme Court?
    Justice Breyer. Mr. Minear tells me that the Judicial 
Conference is currently considering a pilot project that I 
guess they are favorably disposed to it.
    Mr. Schiff. That would be a pilot project in your 
courtroom?
    Justice Breyer. No, it wouldn't be in our courtroom.
    Justice Thomas. No.
    Justice Breyer. It would not. The Judicial Conference does 
not have to do with--our Court--it has to do with the lower 
courts. 
    Mr. Schiff. Well, let me raise specifically the issue in 
your courtroom. I will share my thoughts on that. I would be 
interested to hear your own.
    I would think probably of any courtroom within the system, 
appellate courts, both the courts of appeal and the Supreme 
Court, would be probably the best situated for cameras in the 
sense that you don't have the same kind of jury issues that you 
might have at the trial court level. You have the ability of 
the judges to consider whether counsel are playing to the 
cameras. And I would think particularly at the level of the 
Supreme Court that counsel would be very circumspect about 
playing too much to the cameras, given that if that is not the 
predisposition of the bench, it would not help them in their 
advocacy. And I think that this is one of the few areas of the 
public sector that remains free of cameras, and we are still 
using sketches and audiotapes, which seems anachronistic.
    I just think that change is inevitable. I would be 
interested to hear whether you would contemplate a pilot in 
your own Court or why the dynamic is so different with an 
audiotape versus a videotape.
    Justice Breyer. The answer is I think I don't know. I think 
I know fairly well after a long time the arguments for and 
against. If you bring courtrooms into--cameras into the oral 
argument, there is a big plus for the Court and for the public. 
I think they will see that we do our job seriously; we don't 
always get everything right, but we take it very seriously. 
People are well prepared, the lawyers are well prepared, the 
judges are trying to think out problems that are difficult 
problems. And for the public to see that, I think, would be a 
plus.
    So why not do it? The concerns are not, I think, totally 
the ones you have mentioned, but that is part of it. The 
concerns are if we bring it into our Court, we are assembled, 
and if it is in our Court, it is likely to be in every court in 
the country, including criminal procedures where there are 
separate problems raised as well, judges, juries, witnesses and 
so forth.
    A second problem is will understanding be promoted if you 
can--because you can only show the oral argument, which is 1 
percent of what goes on. And people relate to what they see 
much more than they relate to what is in writing. And we are 
deciding cases that we have results for 300 million people, and 
only 6 of them are in front of us, and we have to worry a lot 
about what our ruling will do to the 299,999,000, et cetera, 
that aren't there, and so will there be misunderstanding about 
that?
    And the third, which I think is minor, but it is possibly 
there, it is not that the lawyers or judges or anybody would 
act up. I don't thing they really would. We just had the 
Canadians in a visit to us, and they have it in there, their 
Supreme Court, and it has worked out all right. But there is 
some concern about what--I mean, we have a group of people in 
our press room who know how the Court works, and when you read 
what they say, you know it is being written about by someone 
who knows how the Court works. That isn't always so. The 
cameras don't always have the time, and will there be 
misperception given?
    Now, you can take those three worries I have listed and say 
in your own mind, they don't stack up against the plus. I can 
understand that. But our jobs are those of trustees for this 
institution that has served America well, and there is no going 
back. I think there is no such thing as an experiment on this 
in the Supreme Court; you have to decide it. And that is why I 
think what is needed is a comfort level; that by giving a 
comfort level, it may come sooner rather than what I tend to 
agree with you on, inevitably later.
    Now, how to get that comfortable is a long, complicated 
matter. I have always said it will involve studies, and serious 
studies, not just ones promoted by the press, serious studies 
of what has happened in different places. And when I say that, 
everyone goes to sleep, because when you mention the word 
``study,'' that is a good somnorific. But I think something 
like that is necessary.
    I like these pilot programs even in other courts. I think 
there are things to be learned, and I think eventually we will 
get the comfort level, but I think we are not there yet.
    Mr. Schiff. If I can engage a little bit on that, because I 
think you mention three different points, probably the most 
substantial being that, well, people could misunderstand 
because the case only ostensibly applies to the litigants in 
the Court, but it affects millions. There is, in my view, a far 
greater chance of misunderstanding if the public isn't able to 
see. There is far greater, I think, opportunity for people to 
be suspicious of the outcome or misunderstand the process or 
misapprehend the process. They don't have the window into the 
Court's workings that would be provided by actually watching.
    And so your first observation, I think, is the much more 
compelling one, which is it would be beneficial to the Court 
because people understand what it does better. It would be 
beneficial to the public to gain that understanding. I think 
that clearly trumps any risk of misunderstanding, which is 
always going to be present, and I think is more present when 
things are done less visibly than with more visibility.
    Is that the tapping of the gavel?
    Mr. Serrano. The 9-minute gavel, yes.
    Mr. Schiff. Okay. I will wrap up, Mr. Chairman. Thank you. 
I knew I shouldn't have made the comment about the Red Sox.
    I also think that the kind of slippery slope point that if 
you do it in the appellate court, you must do it in the trial 
courts isn't necessarily so. And there are different factors 
that work when you have a jury and when you don't.
    And finally, the fact that the print media may be very good 
and very professional, and you have less control with the 
electronic media, that is true in our profession as well. A lot 
of what we do is in writing, and a lot of what all government 
bodies do is in writing, and I don't find that a compelling 
reason not to go forward.
    At the end of the day, I think you put your finger up and 
you said, we just have to decide. I don't think a study is 
going to give you a comfort level. I think the only thing that 
will give you a comfort level is by taking the plunge. I also 
think, Justice, it is just inevitable. And if it is inevitable, 
we might as well plunge forward.
    And I appreciate the chairman's indulgence. Thank you, Mr. 
Chairman.
    Mr. Serrano. Thank you.
    The gentleman brings up an interesting issue, one that the 
chairman, since his days in the State assembly, has dealt with 
about cameras in the courtroom. My concern, just on the record, 
is one that will probably get me badly spoken of tonight on 
some talk shows, but it is precisely the fact both on the left 
and on the right there will be evening talk shows, not the 
news, but the talk shows, grabbing clips from that day's 
Supreme Court proceedings and saying, did you hear Breyer? What 
a jerk. Did you hear how many questions he had? Did you hear 
Thomas? Oh, my God.
    Justice Thomas. Or you didn't hear me.
    Mr. Serrano. Did you see them there?
    That is my concern. And I am sure, in the desire for full 
disclosure, people are going to say tonight that, you know, 
what am I, for covering things up? I wish there was a way that 
we could let the public see more and not just invite people to 
treat the Court the way they treat us.
    Justice Breyer. There is a difference. Can I?
    Mr. Serrano. Sure.
    Justice Breyer. It is sometimes overlooked, but I think it 
is an important one in the nature of the jobs. Your job is to 
write some words on a piece of paper, and those words tell 
people what to do or what not to do. But they don't tell on 
that paper, they don't say why you wrote the words. That is not 
the nature of the job. So obviously there is an inside story 
that is not on that paper.
    A judge's job is different. A good appellate judge, the 
ideal is you write not just the words, but you write the 
reasons why you wrote the words. And if you are honest and 
good, they explain the real reasons why you wrote the words.
    So in that sense the process is quite different, and it is 
a process that takes place much more in writing and much less 
even in conversation among us than, say, a job like yours. They 
are different, but I can see your concern there, and, of 
course, it is something that worries us.
    Mr. Schiff. Mr. Chairman, if I could just jump in, one 
quick point.
    Mr. Serrano. You know, Mr. Crenshaw here is not happy. Go 
ahead.
    Mr. Schiff. Mr. Crenshaw is such a gentleman, he will allow 
me 30 seconds, please.
    No one is suggesting that your job is the same as ours, but 
I am suggesting that the public would benefit from a better 
understanding of your job just as it benefits from a better 
understanding of ours. People watch your arguments and listen 
to your arguments because they find the questions you ask shed 
light on sometimes your own thinking, sometimes on the issues 
in the case. I think the more the public has a chance to see 
how thoughtful and probing those questions are, I think, as 
your original comments indicated, it is good for the Court, and 
it is good for the public.
    I yield back, Mr. Chairman.
    Mr. Serrano. Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    I might make the observation that today's hearing is being 
televised, and one thing is irrefutable: When you put Members 
of Congress on television, they tend to talk longer than they 
do when they are not on television. So I don't know if that is 
true to the Supreme Court, but we have kind of seen that over 
the years.
    Let me say that I have looked at the numbers and listened 
to your testimony. The budget requests are certainly 
reasonable, a modest increase. The building is pretty much on 
time and on budget. You are asking for 12 instead of 24 
additional security folks. So I don't have a lot to quarrel 
with in terms of budget requests.
    I just have a couple of questions I am kind of curious 
about. Number one, how does the Court decide who comes here to 
testify? Is that an opportunity that everyone seeks and that 
you have done such a good job that you are invited back, or is 
it because you draw straws and you come up short every time?
    Justice Thomas. Well, actually it is probably a 
combination. But if you would bear with me 1 minute, I would 
like to just address the question of the increases on--the 5 
percent increase that Mr. Schiff asked before, and that is the 
proposed increase for 2011 for the members of the Court is 1.4 
percent. That is the mandatory increase. And for the Court 
personnel it is 1.4 percent also. So it is different from the 5 
percent that is the overall budget. They are unrelated.
    I was asked in my early years on the Court to participate, 
to be a part of the budget committee, and that meant that you 
came up here as a part of that and testified. I don't know how 
that selection was made except when the Chief Justice asks you 
to do something, you normally try to be positive and be a part, 
help him out. I think it is good for the Court and good for the 
institution to be asked to do these things. And I think, like 
anything else, you get used to it, and you would know the 
process, and they like that continuity, especially with a new 
Chief Justice. And he asked that we participate in this, and I 
think we--I think I--speaking for me, I enjoy this. I have 
gotten to know the members of the committee, and I think it is 
good for both institutions.
    Mr. Crenshaw. Well, you do a great job, and I am glad you 
are here.
    Let me ask you a more serious question. That is as we get 
ready to kind of watch the nomination process of a new Justice, 
the discussion about diversity will come up, ethnic diversity, 
racial, gender diversity. I know you-all don't have a whole lot 
to do with the selection. That is outside your hands. But you-
all do select clerks. And I was just looking at the kind of 
list of the clerks who have served over the years, and it seems 
to me there is a disproportionate share of clerks that come 
from either Harvard or Yale. And I look out in the audience and 
I see some young people who might aspire to be a clerk for a 
Supreme Court Justice someday. I wonder what they think when 
they look at that, and the kind of question becomes--is the 
reason for that because people from Harvard or Yale are more 
qualified to be Supreme Court Justice clerks, or do a 
disproportionate share of students from those schools apply? 
And is that something that you-all think about, you know, the 
educational diversity aspect of being a clerk?
    Justice Thomas. Well, that is an interesting question. The 
courts are predominantly Harvard and Yale. There is no 
educational diversity there to speak of. The only member of the 
Court who is non-Ivy League is the member who is retiring, who 
announced his retirement. So I don't think that is unusual. You 
do have excellent candidates from those two schools, Harvard 
and Yale.
    I, for one, think that there are excellent kids all over 
the country. I think there are excellent potential nominees to 
the Court all over the country. And I would be concerned about 
it, but I am not--I think you have elections for that. That is 
up to the President.
    With respect to the selection of the law clerks, I tend to 
hire from a very broad pool. I have a clerk from Harvard and 
one from Yale this year, and one from Utah and one from Notre 
Dame. I really don't see it as a negative when a kid is number 
1 or top of the class. The pool may not be as deep at some of 
the other schools, but there is a pool nonetheless. But others, 
you know, it is an individual thing. I hire my own clerks, and 
I have my own criteria. And I am certain the other members of 
the Court have theirs, and with that may go their comfort level 
with moving beyond the Ivy Leagues or too far beyond.
    Mr. Crenshaw. Mr. Chairman, one last question. I have 
always got two bright people in front of me today, and when I 
was reading law, one time I read a case, and I can't remember 
the case and I can't remember the Justice, but the statement 
was that versatility of circumstance often mocks the natural 
desire for definitiveness. Does that ring a bell with you-all? 
Was that Felix Frankfurter? Not that you would know that, but I 
always wondered who said that. I need to go back and look that 
up.
    Justice Breyer. Google.
    Justice Thomas. You should Google it, yes.
    Mrs. Emerson. I will do it.
    Justice Thomas. On your BlackBerry.
    Mr. Crenshaw. I will do that. I once Googled a quote by 
Jonathan Swift. There was a book called Confederacy of Dunces, 
and interestingly enough, I just Googled that because it was 
based on a quote by Jonathan Swift, who Mr. Schiff knows, who 
said, whenever a true genius appears on the scene, you will 
know him by the sign. The dunces all form a confederacy against 
him. So I will go Google that quote, and maybe I can find out 
who said that.
    Mrs. Emerson. I will do it for you. Write it down.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Ms. Lee.
    Ms. Lee. Thank you very much.
    Good morning. Let me just say once again how delighted I am 
to see you both. It is really a rare opportunity that we have a 
chance to interact with the judiciary, so thank you for being 
here.
    I want to follow up Mr. Crenshaw. Boy, he asked my 
question, but let me just follow up a little bit and take it a 
little bit deeper in terms of how I would like to see your 
answer a little bit more in terms of a broader answer.
    First of all, I started here on Capitol Hill as an intern 
in the early 1970s, became a chief of staff, and then went to 
California, ran for the legislature, and now I am back here. It 
has been very difficult. And I have seen some progress in terms 
of women and people of color in these key positions. Not 
enough. Actually we have, to the Speaker's credit, looked at 
diversity here on Capitol Hill, and we are still not where we 
should be in terms of reflecting the diversity of our great 
country.
    Now we are in the midst or the final stages of the census. 
We know based on the previous census we are looking at 15.4 
percent persons of Hispanic decent, 12.8 percent African 
American, 4.5 percent Asian, 1 percent American Indian. And so 
I know that the courts want to strive to be representative of 
the American people in terms of your staffing and law clerks, 
but we have to examine, I think, each agency and each branch of 
government to really look at how it does reflect the diversity 
of our country.
    And Harvard and Yale are great law schools, they are 
excellent institutions. However, we know that there are few 
minorities attending these law schools. And so I want to find 
out if you have an actual concerted effort to identify law 
clerks from schools like Howard or Texas Southern or even, in 
terms of regional diversity, Boalt Hall in California? And how 
do you do this, and is there a way we can look at what those 
numbers are currently?
    And secondly, just in terms of I know your budget is a 
relatively small budget, but if you do contract out any of your 
activities or services in terms of vendors and projects, and if 
you do contract these out, do you have any information as it 
relates to women and minority-owned vendors and how you are 
doing in that respect, if you do have a contracting program? I 
know I asked this question last year, and, Justice Thomas, your 
response was the law clerks reflected, or you thought they 
reflected----
    Justice Thomas. Well, the pool that we--that is the pool 
for us. All of our clerks, or virtually all, with rare 
exception come from the courts of appeals. So you start with 
the courts of appeals, that is our base. Then it is individual 
after that. But I know of very few clerks who have not at least 
clerked at the court of appeals. Some clerk more than once or 
clerk at various levels. So the clerks that you are looking at, 
you look first at the courts of appeals; then you look at what 
we pull from that.
    Now, I have to admit I have a broad base as far as the law 
schools, probably as broad as anyone at the Court with 
exception of maybe Justice Stevens, and so there are quite a 
few in the pool. The reality is that it is the Hispanics and 
Blacks who do not show up in any great numbers.
    Ms. Lee. They don't show up why?
    Justice Thomas. Well, you just look in the pool.
    Ms. Lee. So how do we increase the pool?
    Justice Thomas. Well, I don't think it is up to us.
    Ms. Lee. I would hope there would be a strategy.
    Justice Thomas. I don't think it is up to us to increase 
the pool. The pool comes from law schools and from other 
judges. And then there are other things that go into that. But 
with that aside, as far as--I don't really--I have to admit, I 
don't really disaggregate my selection process that way. I just 
broaden it, and the kids show up. I have had very good success 
in kids who have done well. But----
    Ms. Lee. Who are people of color and minorities?
    Justice Thomas. Yes, I mean, but mostly--you know, again, 
that is not as big an aspect of what I do. It happens. There 
are some who show up, and I don't even know what their color--
--
    Ms. Lee. No, I understand that, but in a country where we 
have a history of discrimination, to show up----
    Justice Thomas. I understand that.
    Ms. Lee [continuing]. Just to show up, but we need to have 
a concerted effort to make sure those who show up are inclusive 
of the population.
    Justice Thomas. But what is there is there. I think that 
what you look at is what is in the pool.
    Ms. Lee. But what is in the pool has to do, unfortunately, 
with some of your decisions on the Supreme Court that have 
really shut out many people of color in some of these 
institutions. So if we go there, we could really have a good, 
healthy discussion about some of your decisions. But I would 
think that we would want to see a broader pool.
    Justice Thomas. I think everybody wants it.
    Ms. Lee. And you would find ways to help at least at the 
court of appeals.
    Justice Thomas. The wanting and the reality are two 
different things. I think that we should have people from all 
over the country on the Court. And as I have indicated, we tend 
to heavily lean toward one region in the country.
    Ms. Lee. Justice Thomas, I am trying to figure out how do 
we change that? Because you don't want to see a Supreme Court 
that is discriminatory, de facto, and that is what happens.
    Justice Thomas. I think you do that--as I said, you broaden 
the areas that you look. Many of us do that. I don't think we 
have the capacity to change other Federal judges' hiring 
practices.
    Ms. Lee. You don't have the capacity, but----
    Justice Thomas. To change other Federal judges' hiring 
practices.
    Ms. Lee. Wouldn't it be great if you sent out an edict to 
say, Wouldn't it be nice to have a diverse law clerk pool that 
reflects this whole country?
    Justice Thomas. I think they know that. I think that that 
is one thing----
    Ms. Lee. They may not if you don't have the pool of people 
there to pull from. They may not know that; that that is what 
you all want to see. Somehow you need to communicate if that is 
what you would like to see, rather than just say, We will take 
who shows up. Because we know who is going to show up, 
especially from Harvard and Yale.
    Justice Breyer. I would say this conversation is not as in 
date as you might think. That is, when I came to the Court 15 
years ago, I was a little surprised at the small number of 
minorities and people of color and Hispanic background who were 
law clerks. I would say in the last 15 years, there has been a 
sea change, and I think that it has not been as difficult as 
people might think. And I think once you establish credibility 
in the areas of people who might think, ``Well, I don't even 
have a chance,'' you say, ``No, you do have a chance.'' I can't 
say that, but I have to know people who will know other people 
who will tell other people. And then gradually people begin to 
think, ``Oh, yeah, maybe I do have a chance''. And then they 
maybe get into this pool, whatever the pool might be. In other 
words, like anything else, when you are hiring people or anyone 
else hires people, you have to do so through networks and 
contacts. That is at least part of it. And I have seen that 
change.
    So I don't think I have had a huge problem here in this 
respect. Not perfect, but not the kind of problem that I think 
you might be thinking of. I think there have been quite a few 
in my office of very, very diverse backgrounds. And it has 
not--I will even tell the chairman, I have even, Mr. Chairman, 
had a law clerk y sus abuelos son de Ponce--I don't even know 
if Ponce should be considered part of Puerto Rico because after 
all, if you are from Ponce, you are really special.
    Ms. Lee. Mr. Chairman, I think the facts would speak for 
themselves. I would just like to ask to see a report of ethnic, 
gender, and regional diversity. Is that possible, a current 
report, so we can look at that?
    Mr. Serrano. This is a very important issue for us and for 
this committee and it has been for me as it has been for you, 
Ms. Lee. I can understand what the justices are saying, and 
maybe it is not their role to say, Send me this person or that 
person. So in view of that----
    Ms. Lee. I understand that.
    Mr. Serrano. In view of that, this committee asked the 
Judicial Conference to give us a report. And the report that 
came back was pretty pathetic about the numbers at that level 
in their courts. So what this committee wants to continue to 
try to do is apply pressure, if you will, where the pressure 
needs to be, which is at those so-called lower levels, to make 
sure that the pool is increased.
    Our information is that that is not happening; it continues 
not to happen. And I intend for this committee to begin to tie 
what we do to an understanding that the federal judiciary can't 
come every year and ask for a lot of support from us and then 
continue to give us those numbers.
    Ms. Lee. Sure. And I understand that, and I have seen those 
numbers. And I hope we get an updated report also, Mr. 
Chairman. But I also think somehow there should be some sense 
of intent, or the Supreme Court justices should make a 
statement that this is something you would like. You can't say, 
Yes, send us a diverse pool. But you can at least indicate in 
some way that it would be nice to see diversity reflected, and 
anything you could do would be very helpful. You all would know 
how to nuance that.
    Justice Breyer. I agree with that.
    Ms. Lee. I am just asking if somehow you can do that 
minimally.
    Justice Breyer. Done. I agree with you.
    Ms. Lee. Thank you very much.
    Mr. Serrano. For the record, I want to state that Ms. Lee 
asked a question I was going to ask and----
    Ms. Lee. Mr. Crenshaw asked it.
    Mr. Serrano. Justice Thomas, you and I have discussed this 
publicly for a while. This is still a concern. And I add to my 
concern in the past to Ms. Lee's current concern which I think 
is important; that in a way that does not compromise the 
integrity of the Court, the Supreme Court itself speak in some 
way on this issue. I am not asking for a Court decision. I am 
still waiting on the one where the Puerto Rican can run for 
President of the United States. That is another issue.
    But you make some kind of a statement that things have to 
change at the lower level because there is a problem. And, 
unfortunately, every year when you folks come here, it is the 
Court that takes the brunt of the questions when, in fact, I 
agree with you that the pool is a problem.
    But in addition to the pool being a problem, or in spite of 
the pool being a problem, I think if the Court was to say we 
need this to change, we could begin to see change. And I have 
nothing against Harvard or Yale. There are different places 
throughout the country that can provide good folks.
    Now, whenever we have you before us, we try to speak only 
to budget issues and we can't pass up the opportunity to touch 
slightly on other things. We won't get into any decisions. As 
we honor the long tenure and important contributions of Justice 
Stevens over the next few months, I cannot help but notice that 
we lose certain unique characteristics from the demographics of 
the courts with his or anyone's retirement at the end of this 
term. Justice Stevens is our last remaining member of the Court 
to serve in the military during World War II. He is the one 
remaining Protestant member of the Court and the last justice 
whose Supreme Court confirmation hearing was not televised, 
amongst other things.
    As we reflect on what we lose from Justice Stevens's long 
tenure and experience, we must also begin to look forward to 
what people want and expect of a new nominee. Absent any 
judicial philosophy, which all of us here probably have a 
different opinion on, are there any experiences, legal or 
otherwise, that you believe the Court would be well served by 
in a new justice?
    And secondly, do you think having all the current justices 
with previous judicial experience at the Federal courts of 
appeals helps or hinders deciding cases? Do you think the Court 
would do well to have a justice with experience at the State 
level of our judicial system, as Justice Souter did, or perhaps 
to have an experience as an elected official, as some other 
members have had? So without again getting into philosophy, 
what best serves the Court in your opinion?
    Justice Thomas. Well, to all of the above, Mr. Chairman, I 
would say yes. I don't think it matters as much what the 
experience is, as long as it is experience making decisions, 
and hard decisions. Just as I think it helps us if someone is 
from a different part of the country, it helps us if someone 
practiced law or maybe taught a particular area or prosecuted 
or defended in a particular area. A judge on a lower court, a 
trial judge versus an appellate judge, all of those things 
help--Byron White was a wonderful judge, another World War II 
veteran. He had not been a judge at all. He was a deputy 
attorney general and in private practice before he came on the 
Court. Just an excellent member of the Court.
    So I think all of the above works. What we look for, those 
of us who have been there a while, someone we can get along 
with, an honest person, a person who will be conscientious, a 
person who will realize it is a small group of us making hard 
decisions. I don't think we ever discussed, at least during my 
tenure, how a particular person would vote. And that is the way 
we operate. But I don't have a formula for what a judge should 
actually have. I like the way the Court is; people come at 
problems with different perspectives and with a different 
background. I think it is helpful to have that sort of mix. And 
I think that most sitting judges learn in doing this job that 
it is a humbling job, simply because the only people who have 
ready answers are the people who have no authority to make the 
decision and no responsibility to make the decision. Those of 
us who have to make it, have to be more cautious and have to be 
more humble about our abilities. So I don't think any of us 
would come out and say to you, We have a formula for what the 
next member should look like. Just as long as the person is a 
capable, good person.
    Justice Breyer. I think in respect to what you are talking 
about, you should keep in mind the job--and it's why it is a 
better job for an older person, in a way--it is sitting in a 
room. That is how I spend my day; I spend my day looking at the 
word processor. You are reading and you are writing. I told my 
son that. I said, ``If you do your homework really well, you 
get a job and you can do homework the whole rest of your 
life.'' But what that means is you have to know not just what 
those books say--that is part of it--and what all those cases 
say and what the briefs say--that is part of it--but you have 
to have what I would call a certain kind of imagination because 
you have to be able to think yourself beyond the room into the 
lives of the people whom these decisions will actually affect, 
and you have to have a realistic imagination so you will 
understand what the impact of this decision is going to be on 
those people.
    I cannot give you a magic touchstone that will tell you 
whether you have that kind of person. All I can tell you is 
that the nine people that are there try as hard as they can, 
and sometimes they succeed and sometimes they don't. But it is 
that kind of imaginative experience of others that really, I 
think, makes the difference in terms of how you write those 
words.
    Justice Thomas. Yeah.
    Mr. Serrano. It is interesting, Justice Thomas, when you 
say it is a humbling experience. I will tell you a quick 
experience that I had. I represent, as you know, the South 
Bronx and there are a lot of immigrants in the South Bronx, 
there are a lot of folks with English as a second language, a 
lot of poor folks, a lot of folks with little education. So I 
have been explaining on a daily basis, after 20 years in 
Congress, what it is a Member of Congress does. It is a daily 
routine for me, either in a school or in a community center or 
on the street.
    When Sonia Sotomayor was being considered, granted, a lot 
of the excitement was that she was a woman from the Bronx, that 
she was a Hispanic woman, that her parents were from Puerto 
Rico. But there was no explanation on my part as to what she 
was being nominated for. Everybody understood ``el Corta 
Supremo.'' It was as if they knew that this was huge, this was 
big, this was important, this was the coming of age for the 
community; and it became something where everywhere I went you 
are going to make sure this happens: Right, oh, yeah, I spoke 
to the Senate and it is a done deal.
    But the importance--I have told you in the past, much to 
the dismay of some of my friends on the left, that I feel a 
little uneasy about having a hearing for the Supreme Court 
because of the respect I have for the Court. I don't always 
agree with its decisions, but I have a respect for what it is. 
It is humbling, but the public understands. The public 
understands the importance of what you do and the bearing it 
has on the future of our country. So we always thank you for 
your service and tell the other seven that we do the same for 
them.
    Justice Thomas. Thank you, Mr. Chairman. And it is always 
an honor being here. You and I have been at this together for a 
decade and a half.
    Mr. Serrano. I am glad to hear that you don't think there 
has to be a judge on the court up here, because I am not a 
judge.
    Justice Thomas. And you don't have to be born in the United 
States. You never have to answer that question.
    Mr. Serrano. Really? So you haven't answered the one about 
whether I can serve as President, but you answer this one?
    Justice Thomas. We are evading that one. We are giving you 
another option.
    Mr. Serrano. Thanks a lot.
    Justice Thomas. Thank you, Mr. Chairman.
    Mr. Serrano. Mrs. Emerson.
    Mrs. Emerson. Carrying on this thread a little bit, so the 
last three justices appointed to the Supreme Court were 55, 56 
and 50. The last retiree, 90. Some have referred to becoming a 
justice or an appellate judge as taking the veil. And I am just 
curious, do you all think that it is good for the Court to have 
these younger justices serve terms that could be easily 40 
years in length? I am curious.
    Justice Thomas. Well, you are talking to a person who was 
appointed in his forties. I guess I am sort of an extreme 
example of your example. I can say this, and let me answer it 
this way: I am very pleased that I had the opportunity to work 
with members of the Court who had long tenures. Each of them 
brought something unique. They have a view of the law and the 
job that is different and has more depth to it than when those 
of us in our first 2 or 3 years. They have been there.
    To hear Justice Stevens talk about being there in the early 
days with Justice Stewart, and what the decisions were, and 
having sat on so many cases that now form the precedential 
foundation for much of our jurisprudence, it gives you an 
advantage when you have people with that much experience.
    I don't have a magic formula for how long judges should be 
on courts. If it was 25 years, I would be close to done; I 
would move on to another phase of life. But it is not that. It 
is a lifetime appointment in this country. And I see from my 
perspective, not necessarily for me, but I see some advantages 
to it and some disadvantages. But so far I just simply do not 
see, in serving with members who were in their later years, I 
just haven't seen all that many disadvantages. They have been 
wonderful colleagues, to a person.
    Mrs. Emerson. I appreciate that. Justice Breyer.
    Justice Breyer. I don't know if the right number is 40. I 
don't know what it is. It needn't be that long. But you would 
have missed Holmes, some of Holmes's service and Brandeis. What 
I think is important is that they be long-term. And the reason 
I think that is because it means that you will have members 
appointed by different Presidents. And while Presidents make a 
huge mistake if they think they are going to appoint somebody 
who is going to agree with them all the time, they--Teddy 
Roosevelt appointed Holmes. Three months later he is on the 
wrong side of the Northern Securities case and Roosevelt says, 
``I can carve a judge with more backbone out of a banana.'' He 
was pretty annoyed.
    But on general philosophy, on general philosophy, there is 
more of a correlation. All right. I came to this Court. I have 
been a judge in New England. I grew up in San Francisco. I 
spent a lot of time teaching, and I suddenly thought, my God, I 
have met a lot of people who I disagree with on something, but 
boy they are really here and they really disagree. And then I 
think about that for 5 minutes, and I think that is a very good 
thing. This is a very big country. There are 300 million 
people. They have 900 million points of view. There is every 
race, every religion, there is everybody under the sun in this 
country. And they have learned how to live together under law. 
And our greatest perk, our greatest benefit, is we get to sit 
there and see that.
    So it is a very, very good thing that I serve with people 
who don't always agree with me--sometimes they might--but who 
don't always agree with me and have different points of view. I 
think you ought to serve at least long enough to be sure you 
pick up a lot of that.
    Mrs. Emerson. I appreciate that.
    Let me ask another question that is a rather touchy 
subject. And I promise you, I am not trying to put you on the 
spot. But this is a big issue, given the fact there are a lot 
of judicial vacancies around the country at all levels. Are we 
having a tough time retaining judges because we are not giving 
any cost-of-living increases?
    Justice Breyer. Yes.
    Justice Thomas. Yes.
    Justice Breyer. In my opinion, yes.
    Mrs. Emerson. Easy enough.
    Justice Thomas. Not only are you having trouble retaining 
some of the ones who are on the bench, we are beginning to see 
pushback or resistance to even being nominated by some of the 
best talent in the country. But that is just a part of the 
reality.
    But I would like to just take a brief second to touch on 
just one aspect of the diversity question because I think Ms. 
Lee had a good point. One of the things that you run into when 
you visit law schools that are not the Ivy Leagues is a sense 
among the students--and it doesn't matter whether they are 
minorities or women or males--that is, just many of the 
students--that there is no chance that they can be here at our 
Court as law clerks or any other capacity. That is something 
that I think we certainly can eliminate in saying that that 
possibility exists. And that spreads throughout.
    I also think that Justice Breyer is absolutely right that a 
lot of our hiring--there are only four to each of us a year. 
There is no system. We all do it individually. It depends on 
the people you know. So if you know more people, say, at the 
University of Georgia or George Mason or other schools, the 
University of Missouri or Creighton, you have a tendency to 
rely on their advice about a young person who is applying. And 
it is very individualized. So the broader that net is and the 
more--the least resistance you have to people applying, the 
more chances you have of bringing some of the individuals in 
who are now being excluded on a large scale or a significant 
scale.
    Mrs. Emerson. And I am grateful for you saying that. I look 
at my husband, who is a brilliant attorney, who got into two 
schools, the University of Missouri and Yale. He applied to 
only two and chose to go to the University of Missouri to prove 
that he could be as good, if not better, than a Yale lawyer. 
That is a terribly silly reason and risky. But nonetheless, I 
just think it is important to move just beyond the Ivy Leagues 
because there are so many young people, who just simply can't 
afford to go to the Ivy League schools, who are brilliant and 
deserve to have opportunities. And I am glad to see the 
sensitivity toward bringing in more diverse schools.
    Mr. Serrano. We are going to wrap up in a couple of 
minutes, both of you. When you spoke about the lack of pay or 
other reasons, I am reminded of a thought I have every so 
often; and that is that we are a people who love our country. 
We love our system, and we should. It is the greatest system in 
the world. We love our democracy, and we should. It is the 
greatest democracy in the world. We love it so much that at 
times we act like we are trying to impose it on other people in 
other countries because we like it so much.
    We don't care so much for the people who run the system or 
the people who make the judging systems. It seems like a lot of 
Americans think this runs by itself, it was set up and it runs 
by itself.
    So there is this incredible contradiction, but healthy, I 
guess, where we love what we have going, but somehow the roads 
get built by themselves and nobody has to approve that budget, 
and the hospitals get funded by themselves, and there is no one 
in the courts except a computer.
    Let me ask you just a couple of more questions and we will 
wrap up. This one, bear with me, there is a brief statement 
before. There has been some confusion as to the Supreme Court's 
requirements for granting cert and stays in capital cases; that 
is, in cases involving the death penalty. My understanding is 
that generally the Supreme Court only requires four votes to 
grant cert, which allows that case to be reviewed by the Court.
    However, it is also my understanding that the Court has 
never made explicit its policy for granting stays in cases 
involving the death penalty, although many scholars of the 
Court indicate that the Court needs a five-person majority to 
grant a stay in death penalty cases. This results in potential 
situations in which the Court could grant cert to hear a case 
involving the death penalty for a particular individual, but 
not stop an execution from going forward.
    Would it be possible to get a firm explanation of the 
voting requirements that are necessary to grant a stay of 
execution in capital cases? Do you think that cases such as 
those discussed in the recent New York Times article on this 
issue where the Supreme Court decided to hear a case involving 
the death penalty, but refused to stop an execution going 
forward until the Court had heard the merits of the appeal, 
does that present a problem? And I apologize if you feel that I 
may be going into Court decisions. I am trying not do that at 
any of these hearings.
    Justice Thomas. I think it is a fair question, without 
discussing the actual case involved. I think that would be 
inappropriate. The practice has been, since I have been at the 
Court, to be very sensitive to this difference between the 
number of members of the Court it takes to grant cert versus 
the number it takes to stay any action, not just executions. 
And in the past, the reason it rarely comes up is because it is 
resolved internally with individuals casting a vote to stay it, 
even if they don't agree with it. So you don't have that 
inconsistency. And occasionally you might have a difference of 
opinion as to the underlying merit of the grant. But there are 
reasons in these sort of exceptional cases why you don't get 
the fifth vote, but the normal practice is that the five is 
almost automatic. So it is rare.
    Justice Breyer. It is important to see, in things like 
this, because it is a very important matter, that there are 
informal ways of working things out. And so the four who would 
like it granted also are thinking, well, there is an issue 
here. And you might have enough discussion with the other 
members of the Court where you would think, well, it would be 
an issue, but it is not necessarily a winning issue you have 
here. And others might test the strength of feeling, and it is 
perhaps a little bit like you might have in a caucus or 
something, or a discussion where you try to get things to work 
out. And normally it works out, not always to everybody's 
satisfaction, but normally it works out.
    Mr. Serrano. Thank you.
    Justice Thomas. That difference is always there. And just 
by the rarity of the occurrence you can see that it works out. 
And I think Justice Breyer's keyword there is these 
``informal'' arrangements, of which we have many at the Court, 
allow you to make adjustments as circumstances change.
    Mr. Serrano. Right. Just ending here.
    March 18th, you started hosting the Web site, the Court 
itself. Will you be keeping records of the different pages or 
parts within the site that get hits? And how will you use that?
    Justice Thomas. I am not aware of whether or not we are 
going to do it for each page. But let me have our Web people, 
our IT people, prepare a report and get back to you.
    Mr. Serrano. Great it would be good to find out and also 
how you are going to use that data.
    Justice Breyer. If you have a chance, it is 
www.supremecourt.gov.
    Mr. Serrano. I have been there.
    Justice Breyer. Good.
    Mr. Serrano. And by the way, I apologize--talking about 
technology--for being a little late today. I was putting on 
Facebook that we were going to be on C-SPAN. So I thought it 
was important.
    And to make our C-SPAN friends happy, my last question is: 
Last year C-SPAN aired a special series on the Supreme Court. 
All the justices agreed to be interviewed. The series enabled 
the public to hear directly from the justices about their work.
    What other steps have the justices taken, either 
individually or collectively, to help inform the public about 
the Court's operations and its important role in our democracy 
and in our constitutional structure? I just say that I am a big 
fan, as I told you before about the whole situation with 
Sotomayor, of informing the public more and more and more of 
what the Court is all about, because it is so important.
    Justice Thomas. I think that on what you see--when we 
started this conversation about informing the public, think of 
the things we were talking about--making the briefs available. 
All of the briefs are now available.
    Mr. Serrano. A short time after.
    Justice Thomas. That is right. It is a joint arrangement 
with the ABA. It is right after they are filed.
    Now, with a joint arrangement with C-SPAN, you saw that 
wonderful presentation where every member participated. And C-
SPAN does a particularly good job because they don't have an 
angle other than to get it done right. And I think you are 
going to see that the Web site, the fact that we have control 
of it now, allows us to do more and more of this; to do things, 
for example, to work with our historical society, to work with 
other institutions, the ABA and organizations like C-SPAN, to 
make the Court accessible to people who can't get there.
    We can talk about oral arguments. Oral arguments are a 
minuscule part of the decision making process in my opinion. 
And it is also a minuscule part of what we do and what happens 
at the Court.
    But there is so much more that is already there, and more 
that will be accessible to the public on the Web site and in 
other ways. You will see more cooperation with, I think, 
organizations like C-SPAN and the American Bar Association.
    Justice Breyer. I think that may be the only single thing 
we can do in response to your earlier question; and that is, 
Why do people in this country not understand what it is we do? 
And although you, I am sure--and I know that we do, and I have 
seen him give an infinite number of speeches, Justice Thomas, 
to the Horatio Alger Society, any group that comes into the 
Court. We are talking to high schools, we are talking to 
grammar schools when they come in.
    Yesterday I was at Duke, talking to some law schools. And 
C-SPAN is such a help in this, beyond belief, because they will 
put these things on. I grant you sometimes it is for 
insomniacs, but nonetheless it is very helpful. I mention it 
because----
    Mr. Serrano. When it is midnight in New York, it is 9:00 in 
California.
    Justice Breyer. Justice O'Connor has been devoting her 
retirement years to this, as has Justice Souter. And what the 
``this'' is, is trying to get teaching of civics restored to 
the high schools and trying to get, say, you or others in the 
government to explain to children through a lesson plan, 
through a lesson plan, what it is you do, so they take it in in 
an organized way.
    She has a Web site. The Annenberg Foundation has been 
supporting it. There are other foundations, Carnegie, that 
support it. And I believe in it completely and I am sure you do 
too. And we love spending time doing that.
    Mr. Serrano. I know that the last time I was at the Court 
seeing certain people that I see here at this hearing dressed 
in a special attire to make a presentation, that was quite 
historic and beautiful.
    Once again, thank you for coming before us. Thank you for 
the service to our country. As we move forward on this budget 
process, we will take into consideration your request. And you 
know that in the past, we have done the right thing and we will 
continue to do the right thing.
    Justice Thomas. Thank you, Mr. Chairman. Thank you, Mrs. 
Emerson.
    Mr. Serrano. The hearing is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 28, 2010.

     FY 2011 BUDGET REQUEST FOR THE GENERAL SERVICES ADMINISTRATION

                                WITNESS

MARTHA N. JOHNSON, ADMINISTRATOR OF GENERAL SERVICES
    Mr. Serrano. Good morning. I am sorry I am somewhat late. I 
was trying to reach a group that came from Puerto Rico for 
tomorrow's big bill, and so we are all running all over the 
place. And yes, we ran that race this morning, and I finished 
the race.
    Mrs. Emerson. You ran it or walked it.
    Mr. Serrano. I ran it. It might have looked like I was 
walking, but trust me.
    Mrs. Emerson. Oh, no, no, no, I thought it was a walk race, 
not a run race.
    Mr. Serrano. You mean versus like a Republican-Republican 
and a Democrat-Democrat.
    Mr. Serrano. No, it was a race.
    And my team, the Serrano Peppers did very well.
    Mrs. Emerson. What a cute name.
    Mr. Serrano. Yes. Okay. Today we hear testimony on the 
fiscal year 2011 budget request of the General Services 
Administration, GSA. We welcome Administrator Martha Johnson, 
who was confirmed this February to discuss this agency's fiscal 
year 2011 budget submission. Ms. Johnson served as co-lead for 
the Obama Presidential Transition Agency Review Team for GSA. 
Among other positions, she served as GSA chief of staff from 
1996 to 2001 under then Administrator David Barram. From 1993 
to 1996, she was assistant deputy secretary at the Department 
of Commerce.
    Congratulations on your confirmation. We are glad to have 
an administrator in place and are happy to have you here for 
your first hearing before us.
    The GSA has been supporting Federal agencies and their 
workers since 1949 by acquiring goods and providing services 
and facilities to support the needs of those agencies. The GSA 
performs a wide range of services from the construction of 
Border Patrol stations through the management of many e-gov 
initiatives.
    Additionally, the GSA coordinates and evaluates government-
wide policies related to the management of government property, 
technology and administrative services.
    The Recovery Act provided GSA with $5.55 billion for green 
projects, new construction, including Federal Court houses, 
lands ports of entry and initial construction of the DHS 
consolidated headquarters on St. Elizabeths campus in D.C. This 
project, at 4.5 million total square feet, is the single 
largest commission in GSA's history. I look forward to a 
discussion of GSA's continuing implementation of the Recovery 
Act funds.
    The administration is requesting $674.8 million in 
discretionary funding for 2011, which is a 13.5 percent 
increase over 2010. Given the President's freeze on nonsecurity 
discretionary spending, we will need to take a close look at 
all agency requests for increases.
    Administrator Johnson, this subcommittee looks forward to 
the remarks you will make today. I would like to ask that you 
please keep your opening statement to 5 minutes. Your entire 
written statement will be submitted for the record.
    And now I would like to turn to my colleague, my sister, 
the greatest ranking member in the world, and a person who 
believes that races are walks.
    Mrs. Emerson. Probably because I would have had to have 
walked it, Mr. Chairman.
    Mr. Serrano. Or because every race for you in November is a 
walk.
    Mrs. Emerson. I only wish. Is that an endorsement?
    Mr. Serrano. I stand by my previous statement.
    Mrs. Emerson. Thanks, Mr. Chairman.
    We really appreciate your being here, Ms. Johnson, and we 
welcome you for your first appearance before the Appropriations 
Committee.
    I must tell you that having spent a lot of time reviewing 
the GSA budget, I find it one of the more complex budgets in 
our jurisdiction. So I really appreciate the Chairman holding 
this hearing. And I appreciate the fact that you all really 
touch the lives and workings day to day of every Federal agency 
and every Federal employee. And the fact is that the level of 
business you all do is quite staggering.
    Just to make a couple of comments. The Federal Buildings 
Fund has grown to over $9 billion a year, and that is not 
including the one time influx of the $5.5 billion that we gave 
you of stimulus funds last year. You all manage a portfolio of 
almost 9,000 buildings and structures for the Federal agencies 
that have a replacement value of $70 billion, and you procure 
over $40 billion in goods and services for the Federal 
agencies.
    So even though it has been a year since the stimulus bill 
was enacted, I am still having some issues with that $5.5 
billion worth of stimulus money that we gave to the General 
Services Administration. Many of the buildings that, as I told 
you, that were receiving funds for modernization were or are 
recently constructed buildings, and I am still not satisfied, 
or I guess it is just not clear to me, why these new buildings 
were prioritized when you were still facing about a $5.5 
billion backlog in building repairs.
    With regard to annual energy savings it is unclear to me 
how much in energy savings will be realized from the 
modernizations, as well as the appropriations accounts which 
reflect the savings.
    And I will just make a side comment that apparently in the 
Greening of the Capitol, we are all getting new toilets in our 
offices. And in order to save the amount of water that we need 
to save for energy purposes, one would have to flush their 
toilet 69 times a day in order to achieve the water savings 
that we have been told that these $660 toilets will cost. So 
therein lies my real sort of antipathy about this particular 
issue.
    I am opposed to the use of stimulus money to fund the 
escalation costs of buildings already being constructed. And I 
will be curious as to how many new jobs, if any, were created 
by devoting millions of so-called stimulus funds to cover 
escalation costs.
    Mr. Chairman, I hope to continue working with you to ensure 
oversight of billions of taxpayers' dollars being managed by 
GSA. I just want to make sure that GSA is not just spending 
money because we gave it to them and because they have lots of 
it, but that every dollar is being used to improve the 
efficiency and operations of the Federal Government.
    So thanks so much for being here today and I look forward 
to your testimony.
    Mr. Serrano. Thank you so much.
    Please proceed. As I said, please limit it to 5 minutes, 
and we will put your full statement in the record.
    Ms. Johnson. Thank you so very much.
    All right. Chairman Serrano, Ranking Member Emerson and 
distinguished members of the subcommittee, thank you for 
inviting me to appear before you today to discuss GSA's fiscal 
year 2011 budget request. I would also like to thank you for 
your continued support of GSA through the appropriations 
process. The funds you provided to GSA in the Recovery Act and 
in our fiscal year 2010 appropriation are being dedicated to 
some of the most pressing problems our Nation is facing: 
stimulating the economy through job creation, reducing the 
Federal Government's carbon footprint, and increasing energy 
security, and ensuring that taxpayer dollars are being spent 
wisely and transparently.
    As Administrator, my vision is to transform GSA into an 
innovative change agent for the government. We will change the 
way we acquire, manage and dispose of our assets to improve the 
environmental and financial performance of the government. We 
will accelerate our efforts to open government through our 
government-wide policies and expertise in citizen engagement 
and collaboration. GSA will offer new sustainable products and 
services to our customers and, in so doing, will influence 
their behaviors to reduce consumption, reduce waste, improve 
efficiency and effectiveness.
    We will make this transformation and improve our 
performance so that GSA is known across the government for 
three things: innovation, customer intimacy and operational 
excellence. We have demonstrated our commitment to improving 
these three dimensions of performance by embedding them in our 
new mission statement, which is, GSA's mission is to use 
expertise to provide innovative solutions for our customers in 
support of their missions and by so doing foster an effective, 
sustainable and transparent government for the American people.
    With that said, GSA's fiscal year 2011 budget request 
further supports our efforts to achieve our mutual goals of 
economic recovery, sustainability, and open government. Our 
budget requests $675 million in net budget authority. This 
amount is just 2.8 percent of our total planned obligations of 
$24 billion. The majority of our funds come in the form of 
customer reimbursements for goods purchased or rent paid for 
space under GSA jurisdiction, custody or control.
    For the Public Buildings Service, GSA requests $9.2 billion 
in new obligational authority. Of these funds, $676 million are 
requested for the construction and acquisition of critical 
facility projects for the Department of Homeland Security, Food 
and Drug Administration, Federal Bureau of Investigation, 
Customs and Border Protection, and the exercise of the lease-
purchase option to acquire a building used by the Internal 
Revenue Service in Martinsburg, West Virginia.
    We also request new obligational authority of $703 million 
for repairs and alterations to Federal buildings. These funds 
are used to prevent deterioration and damage to buildings, 
which not only protects the government's investment but helps 
to ensure the health and safety of building occupants.
    For GSA's operating appropriations our fiscal year 2011 
budget requests $321 million. Our operating appropriations 
provide for GSA's Office of Government-Wide Policy, the many 
government-wide programs of the Operating Expenses account, the 
GSA Office of the Inspector General, the Electronic Government 
Fund, the pensions and office staffs of former Presidents and 
the Federal Citizen Services Fund. This year's budget also 
requests funding for a new appropriation, the Federal 
Acquisition Workforce Initiatives, whose purpose is to improve 
Federal contracting.
    In fiscal year 2009, GSA's Federal Acquisition Service 
realized positive net operating results for all portfolios for 
the first time since establishment. Revenues increased in all 
FAS portfolios, resulting in total revenues of $9.9 billion, an 
increase of nearly 7 percent over fiscal year 2008.
    In fiscal years 2010 and 2011, GSA anticipates continued 
growth in FAS business, as we foster collaboration and develop 
new partnerships.
    The Recovery Act just over one year ago provided GSA with 
$5.85 billion, including $4.5 billion to convert existing GSA 
facilities into high-performance green buildings; $1.05 billion 
for the construction of new Federal buildings, U.S. courthouses 
and land ports of entry; and $300 million to replace motor 
vehicles across the fleet. As of March 31, 2010, we have 
obligated over $4.3 billion in Recovery Act funds and used the 
full $300 million provided for the energy efficient motor 
vehicles.
    These funds have a tremendous impact on the economy, and we 
have acquired a number of motor vehicles and demonstrated 
significant impact on energy usage. We have done our best to 
maximize economic impact of our recovery funds. We are awarding 
construction contracts for less than initial estimates. Using 
our existing authorities, we sold motor vehicles that we 
replaced with Recovery Act funds and retained nearly $45 
million in proceeds, which we can then reinvest in new hybrid 
vehicles.
    To conclude, your approval of GSA's budget request for 2011 
is a critical step towards helping GSA achieve our mutual goals 
of economic recovery, sustainability, and open government. 
Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Thank you.
    Thank you for your testimony. One of the objectives of the 
Recovery Act was to commence with expenditures and activities 
as quickly as possible, and that is a quote, in order to help 
create jobs and stimulate the economy. Some observers have 
expressed concern that while GSA should ensure funds are 
prudently managed, its Public Buildings Service has not 
expended the $5.5 billion in funds it received as rapidly as 
the Recovery Act intended. In March 2009, GSA identified 254 
projects it would fund through Recovery Act appropriations, 
including $4.2 billion in new construction and building 
projects upon which GSA could start construction quickly. That 
is another quote. Seven months later, GSA had only expended $57 
million in Recovery Act funds. And the latest report from GSA 
indicates that $295 million has been expended.
    So the question is, why does it take so long to begin 
expending funds on these projects? And if GSA last year 
testified that it would streamline its procurement process in 
order to speed the award and execution of Recovery Act 
contracts, what is the status of the accelerated initiative, 
and how effective has it been in reducing the time it takes to 
get Recovery Act funds into the economy?
    And I think if there was a criticism that you are going to 
hear over and over again, it would be, how come the money is 
not being spent as quickly as it should have been? It would 
seem to many Members of Congress that your agency is one that 
can expend money quicker than others, and you have got things 
in the pipeline all the time, so why isn't it happening?
    Ms. Johnson. There are a couple of ways of approaching 
that.
    First of all, as I arrive at GSA, one of my critical goals 
is to help GSA do some significant business process 
reengineering. I think we need to work on our systems and 
reduce significantly some of the bureaucratic process that we 
are working with.
    With respect to recovery funds, the thing that is important 
to lay out is that when we have actually funded projects, there 
is a tremendous amount of economic activity that is already 
under way, because when we obligate the money, that is a 
contract to a contractor. The contractor then goes to the bank, 
gets the money that will allow them to borrow against, then 
goes and hires people, then puts them to work, then finishes 
the job to our satisfaction, then bills us, and then we fund 
it.
    So the obligation and the funding are separated 
substantially, but a fair amount of economic activity is under 
way. We are actually leveraging the American taxpayer dollar by 
encouraging and engaging in private financing, which then we 
essentially reimburse when the project is done. So there is 
that--our funding is a lagging indicator of the activity, and 
that is where I think some of the confusion is.
    Obviously, that process, the initial contracting, the 
initial obligation, needs to be done as promptly and 
sufficiently as possible, and those projects need to be managed 
well. We do have a PMO across the entire country which is 
watching those and trying to stay on top of the project 
management calculus of them. But it is that delay that is not 
to demonstrate that there is no money moving; there is a 
significant amount of money moving. It is private money, and 
then we will reimburse at the end.
    Mr. Serrano. All right. I am trying to follow this. So you 
say the key here is that you reimburse at the end?
    Ms. Johnson. We fund at the end.
    Mr. Serrano. So if you obligate to me $100 million, I begin 
to hire people and spend my own money?
    Ms. Johnson. You go to the bank and get money. You go and 
get financing for your project, knowing that you have the 
backing of this contract with which you can go to the bank. 
Then you hire the staff, and you start moving on the project. 
They do the work. And then as the project reaches certain 
milestones, they can come and bill us for the dollars, and then 
that will be returned to the contractor.
    Mr. Serrano. Okay. So then the accusation, if you will, or 
the criticism of GSA, would be you are not spending the money 
as quickly as you promised. You would say, we are, it is just 
that we haven't made the payments because the project is not 
completed. But the money is moving around, and dollars that 
would ordinarily not have been expended by these contractors 
are because you are backing them up with the dollars? I don't 
want to put words in your mouth.
    Ms. Johnson. Yes. I think this is not simple, and I think 
that the notion of spending money is--you know, we fund it at 
the end, but there is money moving, and there are people 
working.
    But I think it is useful to look at when we obligate, when 
we do that contracting, so that you know what to expect. Trying 
to reconcile this number to this number is sort of a lot of, I 
think, unnecessary, you know, complexity. But the fact that we 
are letting out those contracts is a critical milestone. And 
then when the money--it is really a lagging indicator. When the 
whole recovery project is over, we are going to be able to look 
back and be able to tell you, you know, the final big numbers.
    Mr. Serrano. Well, I would suggest to you that, not your 
public relations, but your public information effort to be one 
that explains that a little clearer to the Congress because we 
see it totally differently. And what you are explaining now to 
me makes sense, which is scary, because any time a Federal 
agency makes sense to us, we have to be very nervous about 
that. But it does make sense, but that is not the criticism. 
The criticism is just the opposite. So I think that message, if 
it is correct and I take it at your word, then it has to be put 
forth.
    Ms. Johnson. Thank you. I will certainly pay attention to 
that. I believe probably 90 percent of my job is going to be 
communications, and I think it is because our processes are 
complicated.
    Mr. Serrano. Let me tell you, the administration is 
requesting $674.86 mi4lion, an increase of $80.4 million, or 
13.5 percent, above fiscal year 2010. Could you explain what 
the increase accounts for?
    Ms. Johnson. The delta there, about $25 million of that is 
for the Federal Buildings Fund. The rest of it is sort of the 
$55 million; about $5 million of that is $1 million for the e-
gov fund, some money for the Inspector General, some money to 
deal with benefits for former Presidents, sort of some catch-
all of a couple of things like that.
    The big chunks, there is about $24.9 million, $25 million, 
that is being tagged we hope for the acquisition workforce for 
working on the acquisition workforce, which the President has 
identified as a critical issue that we need to pay attention 
to.
    The other chunk, the other approximately $25 million, is a 
combination of two things. One is the Integrated Acquisition 
Enterprise. And that is working with all of the contracting 
information, which is now in many different places, to pull 
that together so that it is integrated, and we can really take 
command and understand the procurement process better.
    And then another $4 million, I believe, for the Office of 
Federal High-Performance Green Buildings, which is a 
particularly special project in my mind with respect to our 
sustainability challenge, a place where we can have the 
expertise and the combined capacity to share ideas and 
understand what is happening in terms of green building work.
    Mr. Serrano. Thank you.
    Mrs. Emerson.
    Mrs. Emerson. We may disagree on this, but let me start 
that way. But you said in your testimony with regard to ARRA 
money that the Recovery Act provided you all at GSA with an 
unprecedented $5.85 billion, including $4.5 billion to convert 
existing GSA facilities into high-performance green buildings.
    To the best of my knowledge, there was nothing in the 
language of the ARRA that said you should use that $4.5 billion 
to convert existing facilities into high-performance green 
buildings, and we are double-checking that. So, in other words, 
you were given the money, but it wasn't directed for that 
purpose, to the best of our knowledge, and I will double check, 
and I could be wrong.
    Ms. Johnson. And I need to double-check that, too. I am 
assuming that, but--it is specific word for word?
    Mrs. Emerson. It is specific that it did for high-
performance green buildings, because I did not recall that when 
I read the bill that it did say that.
    Ms. Johnson. My staff is telling me it is.
    Mrs. Emerson. Well, and I will readily admit to being 
incorrect about that.
    However, just to go back, I know Joe was correct in saying 
that you know, obviously, there is a lot of confusion out there 
among the public about moneys that are obligated and not spent, 
but you know, obligation--I actually interpret obligated the 
way that you describe it, that is just how I personally would. 
But that is just because we built a courthouse in my district, 
and I used to have fights about that all the time.
    However, I went to your Web site that tracks the spending 
of the stimulus funds, and it says that 1,700 jobs have been 
created as a result of GSA's stimulus funding. So that was as 
of December 31, I think. And at that time, you all had 
obligated $2.2 billion, so let's just say you had spent $2.2 
billion. But 1,700 jobs, $2.2 billion, works out to $1.3 
million per job. Is that correct?
    Ms. Johnson. That is one way of cutting the numbers. And I 
am not sure that it is really apples and apples.
    Mrs. Emerson. I know. But that is why it shouldn't be on 
the Web site then.
    Ms. Johnson. I appreciate that comment, and I appreciate 
the need to be ever more clear and accurate. And we need to be 
reporting jobs funded by the quarter, because that is really 
the best way for people to see.
    Mrs. Emerson. Well, yeah, because, I mean--okay. So if the 
next jobs report will be based on activity through March 31st 
and you all have obligated over $4 billion, there sure as heck 
better be a whole lot more jobs than 1,700 jobs for people, or 
it has to be calculated different because people are going to 
go berserk.
    And if I can say, well, you know, GSA, we gave them all 
this money, and they have created 1,700 jobs, and every person 
is getting paid $1.3 million--well, I mean, technically I could 
say that based on what the Web site says, and that wouldn't be 
incorrect, but it is also misleading to your disadvantage.
    Ms. Johnson. Yes, it certainly is. And I think that the 
whole notion that we are creating jobs is actually the wrong 
way to characterize it, because we are funding jobs that have 
to be done. And being very clear with the public about that is 
very important.
    Mrs. Emerson. Yeah, because, I mean, people will just not 
be happy and already are not happy with the fact that it is 
costing an awful lot per job, and they are government-paid jobs 
instead of private-sector jobs. So it is my recommendation that 
you all go back and try to rework that, okay?
    Ms. Johnson. I will do so.
    Mrs. Emerson. Also, it is my understanding that GSA 
considers one phase of a multi-year project to be one project, 
and therefore, all projects started with stimulus funds or the 
ARRA funds are fully funded, by your definition. However, many 
of the projects are multi-year projects or multi-phase projects 
that were started with stimulus funds, such as the Department 
of Commerce headquarters, I guess, is a good example.
    So could you provide for the committee the out-year funding 
requirements of following phases for stimulus projects, like 
escalation costs? You know, I need to have--well, I will go on 
to this next question. But if you could provide for us a list 
of all those things, that would be really helpful.
    Ms. Johnson. We will certainly work to keep you informed on 
what we see as--I mean, if you take the DHS St. Elizabeths 
project, we have a notion that it is a $3.4 billion project, 
and we know specifically what the Coast Guard piece is and what 
phase 1 and 2 and so on are. And of course, when you have 
projects that are that long, they don't just cover multi-year. 
They actually cover whole business cycles, where you know the 
cost of steel can go up and then suddenly the cost of labor can 
go down. So I think we need to do a good solid job on 
projecting it.
    Mrs. Emerson. But we are at this point in time--I mean, I 
think every single bid for every construction project that is 
going on in my district--and these are not government-funded, 
these are private--I mean, every single one of my developers 
who are actually building anything are getting bids that are 
you know far lower than before because people just want this 
work to go on. So I suspect that, you know, to your advantage 
you could probably get more work done for less money now.
    Ms. Johnson. Yes.
    Mrs. Emerson. And that is what--that whole multi-phase 
thing makes me nervous because it is projected. And I don't 
necessarily--the way that GSA has said, well, this is--you 
know, like my courthouse in Cape Girardeau, it is going to cost 
this much. Well, based on today's prices, it is going to cost 
this much, but usually, it is not based--it is not calculated 
that way, so you know, it could be that it could be, you know, 
$10 million cheaper, and $10 million cheaper is a lot of money.
    Ms. Johnson. It is.
    Mrs. Emerson. Even though it doesn't sound like it.
    Ms. Johnson. Yes. And I think that we need to do a better 
job in doing our risk assessments and explaining them as well. 
Because when you are doing projections, anyone can do all kinds 
of projections, so we need to help people understand what they 
are based on.
    Mrs. Emerson. Yeah. So, then, back--do you want me to stop, 
Mr. Chairman?
    Mr. Serrano. No.
    Mrs. Emerson. Okay. I just didn't know if I had gone over.
    Mr. Serrano. You did.
    Mrs. Emerson. You are correct on this language, and I 
apologize.
    I just want to ask you about escalation costs. After the 
stimulus bill passed, GSA decided to devote over $150 million 
to cover escalation costs of ongoing construction projects, and 
right now, there shouldn't be any escalation costs, but that is 
beside the point. Given that you all have requested over $600 
million in reprogramings to address cost overruns in capital 
projects over the past 6 years, you all have had a history of 
underestimating project costs. I mean, I am not blaming you. 
You weren't at least in your present position at the time.
    So could you update us on how your estimates from the 
original spend plan have changed over the past year? And what 
are you--given the fact that construction costs have pretty 
well declined over the past few years, what are you all doing 
with those savings?
    Ms. Johnson. For the Recovery Act money, what we are doing 
is realizing some lower bids than we expected. And that means 
that we have, therefore, more money to go further down the 
project list with, which we are delighted to be able to do. So 
we are actually able to move further than we thought we were 
going to be able to given the original allocations.
    I agree with you that in a market that is moving, first up, 
in the beginning of the decade, and then down, that we need to 
be very tightly communicating what that is meaning for our 
projections. And I am happy to do our best to share that and to 
lay out a risk profile next to it.
    In some cases, the project escalations, as I understand it, 
are simply to get projects going that have for some reason been 
stopped. But I will supply you more detail with that 
afterwards.
    Mrs. Emerson. I really would appreciate it just because if 
I hadn't lived and breathed those projects for 5 years on a 
daily basis, I probably wouldn't be quite as concerned.
    Ms. Johnson. You can understand the difficulties, yes.
    Mrs. Emerson. And it was frustrating. And it is not all the 
fault--no party is at fault totally, but the communication and 
probably the lack of transparency was very troublesome.
    Ms. Johnson. Yes. One of my goals is transparency.
    Mrs. Emerson. Thank you.
    Ms. Johnson. Thank you.
    Mr. Serrano. From the great State of Florida and one of the 
greatest Members in the history of Congress.
    Mrs. Emerson. He is looking for your vote, Deb.
    Ms. Wasserman Schultz. Really? I am shocked. You had me at 
hello.
    Thank you, Mr. Chairman.
    And welcome. It is good to see you. Thank you for being 
with us this morning.
    I have a more locally oriented question as well as a 
broader public policy question. And since all politics is 
local, I will ask you the local one first. From what I have 
observed in looking at the President's budget, the budget for 
GSA does not request funding, again, for new courthouse 
construction projects that were included on the Judicial 
Conference's 5-year courthouse construction plan. And I know 
under the leadership of Chairman Serrano, in the last fiscal 
year, we were able to include construction funding for those 
courthouses, for some courthouses on the list, in spite of that 
fact in the last fiscal year.
    But in reviewing the 5-year courthouse project plan for 
2011 to 2015, as approved by the Judicial Conference, I was 
particularly disappointed to note that the Federal courthouse 
in Fort Lauderdale was not on that 5-year list, despite having 
been included on the list as recently as 2007. You may or may 
not be familiar with the serious deficiencies in the Federal 
courthouse in Fort Lauderdale. It leaks like a sieve. They are 
out of room. They have judges sitting on top of each other, a 
very antiquated facility, and many potential safety risks for 
both people who work there and constituents of mine who go 
there every day.
    So I would like to know why the Federal courthouse in Fort 
Lauderdale was not included on the 2011 to 2015 list, and if 
you can explain the process moving forward, and what role you 
play in that process for GSA?
    Ms. Johnson. We have over the last 15-plus years of course 
been engaged in a significant judiciary relationship in 
building and renovating courthouses. The first customer visit I 
paid when I came into this job was to the Administrative Office 
of the Courts. It is a very important relationship for us, and 
we are working very hard to have a good and rational and fair 
and open process with them. And what we do is work off their 
priority list, so it is in conjunction with them that we 
develop our priorities. And so I----
    Ms. Wasserman Schultz. Fort Lauderdale was on the list as 
recently as 2007. Why is it not on the list anymore?
    Ms. Johnson. I don't know that I have the answer to that 
right now. I can supply that to you. I believe it is because it 
is not currently on the list, but I will verify that and get 
back to you.
    Ms. Wasserman Schultz. Well, it was on the list, and now it 
went off the list.
    Ms. Johnson. It dropped off.
    Ms. Wasserman Schultz. Yeah. I need to know why it dropped 
off the list.
    Ms. Johnson. It is not on the judiciary's list, so we need 
to discuss with the judiciary to understand how they set their 
priorities.
    Ms. Wasserman Schultz. And how quickly can a feasibility 
study be completed in the event that it was on the list?
    Ms. Johnson. It depends upon what the judiciary instructs 
us to do. Feasibility studies, we can launch one fairly 
rapidly. But I think what we need to do is really understand 
the needs in order to do a proper study.
    Ms. Wasserman Schultz. Well, I can assure you that there is 
no greater need than in Fort Lauderdale for a Federal 
courthouse.
    Ms. Johnson. I stand advised.
    Ms. Wasserman Schultz. So I look forward to working with 
you on helping others to understand.
    Mr. Serrano. Now have we finished discussing this 
courthouse?
    Ms. Wasserman Schultz. Yes. Higher on the priority list and 
my broader policy question, Mr. Chairman, is last year GAO 
investigative staff reported that they were actually able to 
smuggle bomb-making materials into 10 high-security Federal 
facilities in four different cities. They were actually able to 
assemble those items once inside the buildings. And apparently, 
a lot of those bomb-making components weren't even on 
prohibited lists coming into those facilities.
    Now, from what I understand, each Federal building has a 
security committee, and they come up with their own list of 
prohibited items, as opposed to there being a one central, you 
know, broader general list of prohibited items. That doesn't 
really make very much sense in this age of homeland security 
and our need to make sure that we protect our facilities. You 
have some courtrooms that ban cell phones, and others allow 
them. I mean, it is very inconsistent.
    So what role does GSA play in building security, and do you 
have anything to do with determining what is included on those 
lists?
    Ms. Johnson. The Federal Protective Service, which is with 
the Department of Homeland Security, is our partner in building 
security matters. Together we work on understanding the risk 
profiles of buildings, and we rely on the interagency security 
committee's standards around that. So there is a process, to 
that extent, that I understand. Beyond that, I would need to 
learn a little bit more and get back with you with fuller 
details. But this is very much of a partnership within another 
agency.
    Ms. Wasserman Schultz. It is pretty disturbing that there 
isn't any consistent list of prohibited items and that bomb-
making materials could be brought into any government facility. 
You know, especially just having passed the Oklahoma City 
bombing anniversary, you know, we are being vigilant through 
TSA at making sure that we have a standardized list of 
materials and people know what is expected of them. I mean, I 
think just for day-to-day life in America, going into a Federal 
building in Oklahoma City versus going into one in Miami, there 
shouldn't be a difference in what you can carry into those 
buildings.
    And I would hope that you could work towards making sure 
that there was one consistent policy and that we tighten up the 
list to the degree that you don't already have control over it.
    Ms. Johnson. I think it is very important for the American 
public to have the expectation that Federal buildings are 
consistently accessible. I do know that with the various 
missions of agencies, we have different levels of security, so 
I will look into that and get back to you on it.
    Ms. Wasserman Schultz. Thank you very much.
    Thank you, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Serrano. Thank you.
    Following her line of questioning but being more global 
here, the 2011 budget request does not include funding for the 
acquisition or construction of additional space for the 
judiciary. This subcommittee has supported these projects in 
previous bills, and the judiciary's caseload will likely 
continue to grow. What were the major factors that resulted in 
an old courthouse construction in an acquisition project 
scoring too low to be funded in 2011? And given that it takes 
years to construct courthouses, are you confident that the 
judiciary's future space needs will be met without initiating 
any new courthouse construction projects in 2011?
    So we have a situation here where we have been very 
supportive in this subcommittee of these construction projects. 
You are proposing none this year. They need space. What do you 
project will be the bearing of this decision on their space 
needs? And do you anticipate courthouse funding will continue 
to be limited to alteration and expansion rather than new 
construction in future years?
    Ms. Johnson. There are a number of different pieces that I 
need to bring to this answer.
    First of all, of course, as I said earlier, we have been 
under way with a massive judiciary program and appreciate the 
support that we have received with respect to funding new 
construction as well as repairs and alternations.
    The Recovery Act allowed us to fund construction on seven 
courthouses. And so, within the last period of time, there are 
a number of courthouses that received some additional support 
or some support so we could move forward on them through the 
Recovery Act. We are currently looking at the judiciary's 
priority list, and the top one is Austin, and that one was 
funded to get under way through the Recovery Act. The second 
one I believe is Salt Lake City. And that courthouse we have 
procured the space, and we have done the design, and we are now 
waiting for authorization, so there is an authorization need in 
order to proceed.
    So we are continuing to work down the list that the 
judiciary supplies, and with recovery money, we have been able 
to continue aggressively with seven other courthouses.
    Mr. Serrano. Well, that answer is a mixed bag. I will tell 
you why. Those of us who voted for the Recovery Act and voted 
for all these massive programs to move our economy ahead were 
under the understanding that where there was no money to 
contract something or to fill out the needs of a project, that 
Recovery Act moneys can go in there and fill that gap, but 
where there was money being expended, the idea was not to 
supplant that money but actually add to it.
    So we actually had had from this committee, generously, 
moneys in the budget for the judiciary. Now basically what you 
are telling us is, we are not going to spend that money because 
we are getting it from another place, but then that was not the 
intent. That certainly was not the reason I voted for it. 
Again, let me repeat it: Where there was no money to spend, go 
ahead, that highway that has been sitting out there for 10 
years and you could never build it, build it now, that will 
help the economy. But where you were spending money, we are 
giving you more to spend, again for the same reason, but not 
for you then to say, I am not going to spend that. So the 
administration's request and GSA's request almost contradicts 
the presentation made to Congress, am I correct?
    Ms. Wasserman Schultz. It cancels it out.
    Mr. Serrano. Yeah. That is how you understood it, right?
    Mrs. Emerson. Exactly.
    Mr. Serrano. We have three people here. That is how we 
understood it.
    Ms. Johnson. I appreciate that.
    The Recovery Act certainly did give us some room to support 
courthouses, and that was not meant to displace budget, annual 
budget processes. In addition, however, we are balancing a 
large portfolio of requests. And in this year's budget request, 
a substantial portion of it is for St. Elizabeths, which is 
another major priority of the administration, the FDA and some 
remuneration work with the Denver Federal Center. So there are 
other pressing needs on the portfolio. And in this year's 
calculus, it was important also to support those other 
projects. So we are trying to play a careful calculus of all of 
the needs on the portfolio.
    Mr. Serrano. Okay.
    Well, two points. First, it should be obvious to you by now 
that this subcommittee wants the judiciary to be taken care of 
with their physical needs, and it is a shame that the request 
came the way it came. Secondly, it is easier for a committee 
chairman and it is easier for a ranking member to respond to a 
request for dollars rather than to create a request.
    Ms. Johnson. I appreciate that, yes.
    Mr. Serrano. So if you ask for $1 billion, I could always 
go to leadership, I could go to everybody else and say they 
asked for $1 billion. That agency asked for $1 billion. I need 
to give them something, even in a tight economy. But if you ask 
for nothing and then I am going to give you something, then I 
will be the one you know spending money, not reacting. So you 
put us in a difficult situation when you don't ask.
    We had an agency here that never wanted money. It is called 
the SEC, and you see why they didn't want money; they didn't 
want to supervise anybody. I mean oversight.
    So keep in mind that you put us in a difficult situation 
here in trying to do what we want to do.
    Ms. Johnson. I appreciate that you are intent and eager to 
help us with the courts, and I will hold that thought in my 
mind.
    Mr. Serrano. Okay. Talk to us about the DHS headquarters 
consolidation. GSA is working with the Department of Homeland 
Security to consolidate DHS operations for more than 40 
locations around the Washington, D.C., area into 7 to 10 
locations. St. Elizabeths will become the new DHS headquarters, 
ultimately employing more than 14,000 Federal employees. 
Establishing a new headquarters at St. Elizabeths will cost an 
estimated $3.4 billion. What is the status of this project? Are 
there any emerging issues that might push completion beyond 
2016, as currently scheduled?
    Ms. Johnson. Right now, we are quite confident that we are 
moving forward on St. Elizabeths, and it is a good story. In 
fact, Friday, I am going to go over and see the site, and it 
was featured in the Washington Post recently. It is not just 
shovel-ready. The dirt is moving over there. There is activity 
going on for the Coast Guard headquarters, which is the first 
major piece of the project. The next phases involve 
consolidating and renovation of about seven headquarters 
buildings, and some of the utility and security fencing and 
historic preservation work, as well as highway interchange. So 
there is a lot of work going on and expected.
    We are comfortable that the Coast Guard building will be 
completed and online in 2013 and that the full project should 
be delivered by 2016. Our current slogan is, on schedule, on 
budget, and on green. We are really excited about St. 
Elizabeths.
    Mr. Serrano. Okay. And as a result--so you are confident 
still for the 2016?
    Ms. Johnson. Yes, I am. Yes, I am.
    Mr. Serrano. Now, as a result of moving folks out of there, 
out of the different places, you will have empty space. Do you 
have a plan for backfilling, and how do you see this working 
itself out? Will you have space that you don't have any need 
for?
    Ms. Johnson. Yes. We have quite--it is a complex plan, but 
it is an important one to understand. We have something like 50 
Federal locations that are housing DHS employees at this point, 
and we also have a number of leased buildings as well, leased 
space, something like 84 leases with another 9 pending. The 
overarching, the arc of work is going to be moving people out 
of those leases and into Federal space, backfilling either DHS 
people moving to St. Elizabeths or simply moving to St. 
Elizabeths. So it is the leased space that is housing employees 
that will then be able to fill up the Federal spaces that will 
be vacated. See, it is sort of a little bit of a moving game 
that way. At the end, I think we will only have about five 
leases. Some of them--between now and 2016, when all of the 
people will be relocating to St. Elizabeths, I believe we are 
very confident that we will find Federal workers to fill the 
Federal space that we have. So, yes, it is an integrated plan, 
and it is not a simple one, but I think it is a very sensible 
one.
    Mr. Serrano. Okay.
    Mrs. Emerson.
    Mrs. Emerson. These are easy questions.
    Ms. Johnson. Oh, good.
    Mrs. Emerson. As we talked in my office and as you know, in 
our statement of managers accompanying the fiscal year 2010 
appropriations bill, you were directed to review the 10 largest 
Federal agencies to determine levels of funds spent on office 
products through the GSA schedules and to do comparisons based 
on the fact that we had--well, actually, the Department of 
Homeland Security had voluntarily decided to try to save money. 
I mean, the whole thing started when DHS said, we are going to 
save $42 million or something over 5 years because we can go 
directly to Staples or any other entity to buy our office 
supplies. So, anyhow, that report is due to the committee here 
in June.
    Ms. Johnson. Yes.
    Mrs. Emerson. Do you suspect that we will receive it on 
time?
    Ms. Johnson. Yes, I do. It is under way. I am looking 
forward to it myself. I am going to learn a lot from it. We 
have been looking at the 2009 expenditures for office supplies 
across about 10 agencies, looking at credit card records and 
GSA advantage records and e-mall records over at the Department 
of Defense. It does look as if the spend on office supplies is 
somewhere between $700 million and $1.3 billion. It is a 
significant amount.
    However, it is also really hard to be sure we are tracking 
it well, because many of the purchases are in that $300 to $500 
range, and they are just so granular it is hard to track. But 
at least we are getting our arms around it, and I think out of 
that we are going to have some real good lessons learned and 
ability to figure out ways in which we can consolidate buying.
    Mrs. Emerson. So is it too early to say that there are 
certain issues that you have uncovered in the study?
    Ms. Johnson. I think it is too early, certainly for me.
    Mrs. Emerson. And I suspect, too, that then, based on what 
the study finds, you are going to implement certain steps to 
ensure that employees who use the schedules are getting the 
best possible prices?
    Ms. Johnson. Yes. We actually have a fair amount of 
activity under way already.
    Mrs. Emerson. Can you share a little bit about that?
    Ms. Johnson. Yes. First of all, we are working hard with 
our own contracting officers so that they understand the 
schedules even better and have better information about what 
pricing has been obtained on those schedules and what options 
they have.
    Mrs. Emerson. Let me ask you something. How many 
contracting officers do you have?
    Ms. Johnson. I am sorry, I don't know. I will have to----
    Mrs. Emerson. I mean, would it be 100?
    Ms. Johnson. Oh, thousands.
    Mrs. Emerson. Thousands.
    Ms. Johnson. Yes. So training is a significant leverage 
point for them, and getting them the information about pricing 
is a significant leverage point across the agency. I mean, in 
the Public Buildings Service as well.
    Mrs. Emerson. Thousands of people. But I am talking about 
thousands--you don't have thousands of people doing office 
supplies?
    Ms. Johnson. No, no, no. In terms of the contracting work.
    Mrs. Emerson. Right. I would understand that there would--
yes, across the board, I know. I was just talking about office 
supplies. I am so sorry.
    Ms. Johnson. I am so sorry.
    Mrs. Emerson. If you have thousands doing that, that is not 
a good thing.
    Ms. Johnson. No, no. I will see if I can answer that more 
granulated question in writing. We are also embarking on 
training contracting officers in the 10 agencies across the 
government so that they will understand the schedules better 
and how to use them. We are keen on helping compliance with the 
regulation out of the Defense Authorization Act, which is about 
getting three bids for every schedule's contract. And that is 
something that we follow, but not everyone has, and that 
regulation is where we are trying to help people train and 
understand that. And we are also keen on putting online the 
terms and conditions of contracts so the contracting officers 
have more information available to them. So it is about 
openness as well as training.
    Mrs. Emerson. Okay. I appreciate that. And I will really 
look forward to reading that report. I am sure we both will.
    Ms. Johnson. Yes, I will, too.
    Mrs. Emerson. Let's talk about the State Department Foreign 
Affairs Security Training Center in the stimulus bill; $70 
million was appropriated to the Department of State to 
construct this Foreign Affairs Security Training Center in 
Queen Anne's County, Maryland. Obviously, we all know that you 
have received a lot of attention for the way that this project 
has been handled, including charges that the site was selected 
without the involvement of the local community and that there 
were some press reports that said GSA sent reps to the 
community. Your representatives weren't able to answer any 
questions, even the most basic ones.
    And I know that it is always a little touchy when you are 
going into a new area and trying to build a new facility. But 
if you could just fill us in, number one, what the status of 
the project is to date? Have the local, the concerns of the 
local residents been addressed? And I also understand that the 
State Department is concerned that the funds won't be obligated 
before the availability of the stimulus funds expire, so can 
you just tell me if you think that is likely?
    Ms. Johnson. Yes. Currently, I will say that we have been 
concerned about, devoting resources and time and some energy to 
being sure the community learns what it needs to know and is 
engaged in a dialogue about this project. We have held--we held 
the prerequisite two community meetings, and we delayed one 
because of the snowstorm. And then we held two more in which we 
had some particular workshops on the issues that seemed to be 
the most contentious.
    So I think we have done a solid job of doing outreach. 
There is no question that there is concern in the community. We 
have taken some people on visits of other training centers, so 
we have taken them to see what the kinds of facilities would be 
and tried to do some extra work to be sure that that 
information is conveyed.
    Currently we are waiting for the environmental assessment. 
The draft of the environmental assessment should be arriving 
the first part of May. With that draft, I think we will have a 
kind of a fork of decision. One is, should we release that for 
public comment, or should we move directly into an 
environmental impact statement process? And we are waiting to 
see what the draft says.
    Mrs. Emerson. Does NEPA require you to do an EIA before 
construction would begin, or are you doing that just in case 
there is a lawsuit?
    Ms. Johnson. I don't know what the process requirements 
are. We certainly feel the environmental impact statement needs 
to be done before construction.
    Mrs. Emerson. No, I mean, it would have to be. But I don't 
know if the law requires just for you to have an environmental 
assessment as opposed to the whole, the 2 or 3 year long 
environmental impact statement, because that is how long that 
takes and the EA is much shorter.
    Ms. Johnson. We are waiting to see what the EA is telling 
us, because we simply are doing that due diligence to 
understand actually what we are facing in terms of the issues. 
And we do want to be very careful about that because the 
community is concerned. So that is where we are. We are also 
doing everything we can to be sure that the money from the 
State Department is obligated, yes, so that it can be secured 
and behind this whole process to support it.
    Mrs. Emerson. Now that we know what obligated means, before 
it is spent.
    Mr. Serrano. On its way.
    Mrs. Emerson. It is on its way.
    Ms. Johnson. Nailed and tagged, not dispersed.
    Mrs. Emerson. Well, any information you can get to us 
beyond what you have said today would be helpful.
    Ms. Johnson. I would be happy to.
    Mrs. Emerson. Okay. I appreciate that.
    Let me ask you about this, and don't get sensitive about 
this, but this is an issue.
    Mr. Serrano. You are going over your time or what?
    Mrs. Emerson. No. What I am going to mention.
    Mr. Serrano. No problem.
    Mrs. Emerson. In Missouri, approximately $41 million of 
stimulus funds are for buildings in our State. And we have got 
about a 9.5 unemployment rate. But within the construction 
industry, it is anywhere from 35 to 40 percent. And so it is 
important for me that the benefits of this spending are being 
felt in our local job market. Can you tell me how GSA 
guarantees that your contractors and subcontractors employ 
people who are legally authorized to work in the United States, 
and are the procedures the same for construction contractors as 
well as for service providers?
    Ms. Johnson. Let me answer the parts of that that I know 
for sure. GSA has some 23,000 contractors with HSPD-12 badges, 
which means a substantial, a substantial effort has gone into 
being sure that our contracting workforce is secure. The terms 
for getting an HSPD-12 badge I think are something like you 
will be working in the building or you are on a job that is 
going to be over 6 months, so it makes it worthwhile. For sites 
that workforce is not yet in buildings or that is a shorter-
term assignment, we bake into the contract that the contractor 
has to guarantee that the workforce that they are using, the 
workers that they are using, will conform to all of the rules.
    Mrs. Emerson. So does that go down to the subcontractor, 
and the subcontractor of the subcontractor, and that 
subcontractor of that third subcontractor?
    Ms. Johnson. My expectation is that it does. Let me confirm 
that.
    Mrs. Emerson. If you would, just because, this is where we 
are having some issues in my congressional district. Because I 
have got, you know, with such high unemployment in the 
construction industry, we have a number of subcontractors of 
subcontractors who are actually hiring people who don't have 
appropriate documentation to be in the United States. And I am 
not--and so it is the employer who should be in trouble here.
    But our overall general contractors are not responsible for 
the two, say if you are going down two subcontractors. And at 
least that is what we have been told; the law would not--they 
don't have to be responsible for, you know, the final 
subcontractor, if you will, on verifying employment. So I am 
just troubled by this because we have had two or three 
instances in my district in the last month where, you know, my 
folks in those communities can't win bids. They haven't been 
able to win any of the bids to put their people to work because 
we are using undocumented workers.
    Ms. Johnson. I will look into that. You are talking 
basically about a double-click or the double-click-through and 
how far the reach of our requirements extend.
    Mrs. Emerson. Right. I mean, I would hope that they would 
be more strict than--you know, because it is a government-
sponsored project. But I just want to be sure given the trouble 
we have had.
    Ms. Johnson. I will learn about that myself and communicate 
it right back to you.
    Mrs. Emerson. Very good. I appreciate it.
    Thanks, Mr. Chairman.
    Mr. Serrano. That does not upset me, what you just said.
    Mrs. Emerson. Thank you.
    Mr. Serrano. However, the other side of that issue is that 
when the economy was doing well, there were always these folks 
employed. Some people have said they were undocumented. Others 
have said they were not citizens. When the economy went back 
and the construction industry was hit, they were let go in the 
same numbers as everybody else was let go. So that this is 
really only an issue if you are letting people go, some were 
kept who were not documented or not citizens, and those who 
were American citizens were let go. But prior to this, the 
comment always was that, without that community, you couldn't 
just about build anything in this country because they were 
very much a part of that community.
    Mrs. Emerson. And I am not saying that at all. I am just 
saying that the employer should be at fault here. I am not 
blaming the folks who are working because they are trying to 
help their families.
    Mr. Serrano. What I am saying is that this was not an issue 
before the economy hit bottom, so it is only an issue now----
    Mrs. Emerson. Oh, right, right, right.
    Mr. Serrano [continuing]. If these folks were let go and 
those folks were not let go. But everybody across the board was 
let go. Those folks we talk about, whether they were just 
documented or undocumented immigrants, are as unemployed in 
that area of employment as everybody else.
    But anyway, Mr. Boyd, Mrs. Emerson claims that I am being 
extra nice to all members of the committee in my presentation 
because I am looking for votes for tomorrow. That is not true. 
I do think you are one of the greatest Members in the history 
of Congress, and I now recognize you.
    Mr. Boyd. Thank you, Mr. Chairman.
    I was delighted to get that call from you over the weekend.
    Mrs. Emerson. Good for you, Allen.
    Mr. Serrano. Thank you.
    Mr. Boyd. I didn't know who that New York number belonged 
to. I quickly figured out.
    Mr. Chairman and Ms. Johnson, let me first apologize to you 
all for being late and beg your forgiveness for not being here 
on time.
    But also, Ms. Johnson, thanks for your service, and I want 
to follow up on a question that was asked earlier by 
Representative Wasserman Schultz relative to the Federal 
building situation.
    I have a similar situation in the congressional district 
that I represent in Panama City with a Federal courthouse that 
is, according to your predecessor, extremely inadequate and 
needs to be replaced. I have a letter from your office here in 
front of me with a report, a building project survey. That 
report is fairly detailed, as you know--I am sure you are quite 
familiar with those reports--and a certification of need. And 
this project actually was on the 5-year plan at one time and 
dropped off. And my question really to you is, what can you 
tell the committee about, when this report leaves your office, 
about the funding, I noticed in your report, you said that you 
had not gotten a request from AOUSC. Obviously, that would be 
the case. What can you tell the committee about how we can--
what we can do to correct some of this?
    Ms. Johnson. My----
    Mr. Boyd. Panama City, Florida, I am sorry. Make sure that 
note has got Panama City, Florida, on it.
    Ms. Johnson. You got it. Thank you.
    Mr. Boyd. Not Panama.
    Ms. Johnson. We have struggled for a long time with the 
fact that the judiciary has a very long list of needs. And of 
course, we have been really aggressively working that for, 
well, over a dozen years, 15, 20 years. We are trying very hard 
to work with the courts against their internally derived 
priority listing. I think it is through the judiciary that we 
need to--they are our customers. We are trying very much not to 
assume that we know more than they do about this sort of thing. 
So we really do try to pay attention to their list of 
priorities.
    Currently the list is--you know, we can get going on their 
top list one, Austin. The second one we are sort of stalled 
right now because of authorization matters. But we are always 
trying to be on top of their top priority. So I think the 
straight-up response is, we need to work with the judiciary to 
help them work their portfolio so that it has the right 
priority listing.
    Mr. Boyd. I thank you for that, and I know that your job is 
just to do the building, not to prioritize. And I totally 
understand that.
    Mr. Chairman, I want you to know, this is something that I 
have been working on for many, many years. On the list, off the 
list, you know, I don't understand that honestly. Maybe I do 
and just want to be in denial. But it is--you know, I hope that 
whatever this committee under this leadership can do with you 
and Mrs. Emerson, that we would try to do better.
    Mr. Serrano. I should tell you, before you came into the 
committee meeting, a lot of the questioning was around the 
needs of the judiciary. Debbie spoke about it. I spoke about 
it. Mrs. Emerson spoke about it. This committee has been good 
to the judiciary for obvious reasons, and we are concerned that 
they are not asking for a request.
    Before you came in, the answer was, which I said in a 
respectful way, was not the greatest answer, was that there 
were recovery moneys that were spent on the courthouses, and 
therefore, they were not asking for money. I told them that 
puts me in a difficult situation because it is easier for me to 
respond to a request up or down on the amount than it is to 
create an amount in a budget that wasn't requested. And that is 
what we are faced with now.
    Mr. Serrano. We stand ready to move ahead and continue to 
put the message forth that the needs of the judiciary have to 
be met.
    Mr. Boyd. Thank you very much, Mr. Serrano.
    Mr. Serrano. Let me ask you a question about construction 
versus leasing. It is one that troubles me somewhat. I see a 
trend moving away from ownership by GSA towards leasing, and I 
don't fully understand it. I don't know if it is GSA's economic 
recovery package for landlords other than for the Federal 
Government, but I trust this landlord.
    By the way, could you look up to the ceiling? If this was 
the GSA Building, you wouldn't allow that, would you?
    Ms. Johnson. Absolutely not.
    Mr. Serrano. Just for the record, it is pretty 
embarrassing. I am glad we are not on C-SPAN. It could be very 
embarrassing to see that.
    So my question is: What factors has GSA taken into account 
in deciding whether a particular facility's needs should be met 
through direct Federal construction or through leasing? Which 
do you tend to prefer?
    And also, if leasing has any of the characteristics that it 
has in areas of my congressional district, the condition of any 
of the buildings require so much repair that it may not be 
cheaper in the short run, but certainly in the long run, to 
build something that is up-to-date; something with the 
technological needs in mind, not where you have to rewire a 
whole building. You and I could come up with a million reasons 
why a modern building is better.
    So why this trend to move away?
    Ms. Johnson. The proportion of the Federal building 
inventory--that is, leased as opposed to owned--has sort of 
tipped over the 50 percent mark, which is raising this kind of 
question regularly.
    We are a very steady tenant. The government is often in a 
building that has particular needs for the government agency. 
So we are keen on having our own buildings wherever it makes 
sense, and that would be our preference. It is also important 
because when we own the buildings, then we are collecting rents 
which then fuel the Federal Buildings Fund and allow us to do 
the repairs and alterations and future construction. It is the 
notion of the Federal Buildings Fund replenishment that pushes 
us towards wanting to have owned inventory.
    The difficulty, of course, is that there are needs by our 
customers for flexibility and short-term needs. The Census is 
the prime example of a lot of leasing done to support a 
particular mission. And I am aware that something like 70 
percent of the requests for space right now are for space that 
is in the under 10,000 size and in a shorter time frame. So it 
just fits in flexibility terms for that.
    However, I do believe that the way the leasing--agencies 
come to us, and if we cannot supply them a new building, we do 
need to turn to the leasing alternative rather than not meet 
their mission needs. And so there are times when we would much 
rather be building and constructing and owning the buildings, 
buying in the inventory that we have been using and so on. But 
there are simply some funding constraints that keep us from 
being able to engage in capital building projects.
    Mr. Serrano. That may be the case momentarily, but we seem 
to see a trend that is moving away. You say you were what, now, 
50 percent or more is leasing?
    Ms. Johnson. Yes.
    Mr. Serrano. If you were a GSA analyst or an outside 
analyst on the future of GSA, is that the way to go? Is that 
healthy for GSA to be leasing so much?
    Ms. Johnson. I think we would agree that, as I said, if we 
had our druthers we would like to be in owned inventory more 
aggressively, but that the leasing alternatives are what we are 
coping with given the way the funding mechanisms support the 
long-term capital projects.
    Mr. Serrano. Okay. Well, again, we told you what this 
committee thinks on the judiciary, and I think we are clear on 
the fact that it is probably not the best way to go, to 
continue to grow in the leasing category. And I think the 
repairs and the other issues will become a major problem.
    Mrs. Emerson. Let me ask a follow-up to that.
    What do you think is the cause of the annual deficit in the 
whole?
    Ms. Johnson. The whole building fund problem? There are 
about four things; let me see if I can get to the four. First 
of all, as we are growing the leasing inventory, we are not 
collecting rents that replenish it. There is no question that 
that is the cycle that I was just talking about. In addition, 
our inventory is aging. Our average age of buildings is 46 
years. Over 30 percent of the inventory was built before 1949. 
It is an old inventory, so to speak, and that means it is much 
more expensive to maintain. So more and more dollars are 
required to replenish and renovate the current inventory. I 
think that is putting stress on the fund.
    The building fund has enjoyed appropriations something like 
28 out of the 37 years it has been in existence. So we know 
this cycle is not self-sustaining. So there are those economic 
pressures on it.
    Mrs. Emerson. The long-term impact on the buildings fund, 
though, is not good.
    Ms. Johnson. Right. Not good.
    Mrs. Emerson. I am interested in--this isn't a ``gotcha'' 
thing, but it is a pet peeve of mine.
    Again, one of your performance goals says that you want to 
award leases at an average rental rate of not less than 7.5 
percent below industry averages for comparable office space in 
fiscal year 2011. Which is a wonderful thing, until it comes to 
the Census. Where in my home town you are paying--let's see, 
similar space to what Census is running at. I know that this is 
a short-term lease, but it is seriously 70 percent more than 
what the market cost is today. I mean, even my office space at 
the Federal building that I did have to negotiate with you all, 
because I didn't like the price you offered me, so we 
negotiated it down. So I thought it was very much of a win-win 
for everybody. But the office space at my beautiful new 
courthouse in Cape Girardeau is less than half of this office 
space for the Census.
    And I am not saying--I know they didn't want to go in the 
Federal building because it scares people, and I understand the 
psychology of not putting a Census office there. But needless 
to say, that sort of flies in the face of what your performance 
goal is. I just point that out as something that I think we 
would be happy to work with you on, but I think it means we are 
going to have to----
    Ms. Johnson. Yes. The short-term leasing is expensive. And 
not being able to put Census offices in Federal buildings is 
also a bit of a constraint. And that is something that we 
always struggle with when we are sending out the Census teams 
to secure space.
    In addition, we have to do all of the build-out, which is 
all paid back in that short time frame. So there are expenses 
associated with that short-term lease that also jack up the 
price.
    This is one of the reasons it is a performance goal. We 
need to be continuously monitoring this and managing this.
    Mrs. Emerson. I can't imagine that a Census office would 
need anything particularly fancy. Who am I to know? I just 
thought you had to work with workers. If they set it up like 
our office, it wouldn't be much build-out at all, other than 
for new toilets.
    Mr. Serrano. Mrs. Emerson and I have to move on today to a 
couple of events, and we don't want to keep you here much 
longer. But I do have a question. What you heard here is what 
you heard here also; it is this whole leasing thing that makes 
people nervous.
    So you are moving into a GSA building?
    Mrs. Emerson. I am in Federal--in our courthouse, that I 
told you, I have day-to-day involvement in the construction.
    Mr. Serrano. Good rent?
    Mrs. Emerson. I negotiated a great rent, actually. I said I 
would only pay the same rent at the new courthouse that I paid 
at the old courthouse.
    Mr. Serrano. I wish I had a Federal building in my 
district.
    You are requesting $9 million in IT funds.
    Mrs. Emerson. Excuse me. Do not increase my rent.
    Mr. Serrano. I don't have a Federal building.
    You are requesting $9 million in IT funds for the Federal 
Acquisition Workforce Initiative; $24.9 million in funding for 
Federal Acquisition Workforce Initiatives Fund; and have $8 
million projected carryover from fiscal year 2010 for the 
Acquisition Workforce Training Fund.
    I understand that the proposal for this was developed so 
late in the process, that GSA is one of the few agencies to 
actually properly have a budget for IT. That is good for you, 
but makes us concerned that plans for it may not be that well 
thought-out.
    If you understand what I just said, you are much better 
than I am. But I have been rehearsing this for the last 2 days. 
But I do understand.
    Do you have other funds that will be used for the same or 
similar purposes?
    Ms. Johnson. For acquisition workforce; government, if you 
will. There are two funds. One is for training. And then this 
Acquisition Workforce Initiative is about a number of different 
things: improving the materials, the curriculum for training 
across more than just contracting officers to include programs 
in project management. It is also meant to fund sort of the 
inventory to understand who is in the workforce, who are the 
contractors, what kind of skills do they have--sort of track 
and know what our workforce is.
    And then the third is to build that community. There is so 
much now available to people that they can share among 
themselves. They don't have to go off and get a degree, but 
they can be sharing their best practices in communication and 
mentoring and helping each other through their career paths. 
That would be a third piece that we would be paying attention 
to.
    So I come from the world of leadership development and 
talent development, and I do believe that the acquisition 
workforce needs some real attention and some support. I think 
we do need to upgrade the curriculum. We need to create the 
communities where they can be working with each other. And I 
think we also need to have an inventory so we know who they 
are, where they are, and be much more informed about it. I 
think this is driving us to better data so we can manage it 
better.
    Mr. Serrano. And is there still interest, as there was in 
the past, in working not only at GSA but in government in 
general? Do you get that sense? People still think it is a good 
job? I am not talking about Members of Congress.
    Ms. Johnson. Speaking for myself, I was delighted to come 
to GSA. I think we are entering a period of a bit of a 
renaissance. And I will say at GSA it is because we are so 
profoundly involved in sustainability. Young workers want to 
join GSA because we have a huge role to play in the green 
agenda.
    Mrs. Emerson. Let me also tell you that a lot of young 
professionals who are in commercial real estate and the like 
really like the idea of going to work at GSA. The hardest part 
of going to work at GSA or any Federal agency or department is 
the crazy application process. And I know John Berry at OPM is 
trying to really, really work hard on making it resume-based 
now.
    So the only downside to trying to apply is that if you 
don't get referred for one job, you have to start from scratch 
again. I think that is frustrating. But I know a lot of people 
who have great expertise, and there is a lot of opportunity for 
growth there because you all do things that other agencies 
don't.
    Ms. Johnson. Yes, we are in a wonderful position that way.
    Mr. Serrano. Before we let you go, let me just say that 
there is an ongoing back-and-forth between Mrs. Emerson and me 
about the St. Louis Cardinals and the New York Yankees. And 
just for the record, in 1949 when the Agency was formed, the 
Yankees won the World Series--but then they were winning all of 
those years.
    Mrs. Emerson. I was just born the next year after that.
    Mr. Serrano. The next year after that, I came to New York 
saying someday I want to be a Congressman.
    Thank you so much for your testimony and for your service. 
Please understand that while we are a committee who wants to be 
supportive, we do have concerns. You have some concerns from 
everybody here about the judiciary and its needs and the 
difficult position you have put us in by not asking for any 
money.
    And the whole leasing issue is one also that is of great 
concern to us.
    I will submit some questions for the record. One of them 
speaks to the territories. We hope that when you look at what 
you do, you remember there are millions of people, American 
citizens who live under the American flag, but who don't live 
in a State, and they should be treated equally as we allocate 
resources.
    Thank you.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


                            W I T N E S S E S

                              ----------                              
                                                                   Page
Breyer, Justice, Stephen.........................................    83
Duff, J. C.......................................................     1
Gibbons, J. S....................................................     1
Johnson, M. N....................................................   123
Thomas, Justice Clarence.........................................    83

                                  <all>

</pre></body></html>
